<html>
<title> - REBALANCE TO ASIA II: SECURITY AND DEFENSE; COOPERATION AND CHALLENGES</title>
<body><pre>[Senate Hearing 113-138]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-138
 
 REBALANCE TO ASIA II: SECURITY AND DEFENSE; COOPERATION AND CHALLENGES 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-149 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

BARBARA BOXER, California            MARCO RUBIO, Florida
ROBERT P. CASEY, Jr., Pennsylvania   RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN McCAIN, Arizona

                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Davidson, Dr. Janine, senior fellow, Center for a New American 
  Security, Washington, DC.......................................    27
    Prepared statement...........................................    29
Green, Dr. Michael J., senior vice president for Asia and Japan 
  Chair, Center for Stragic and International Studies, 
  Washington, DC.................................................    33
    Prepared statement...........................................    35
Helvey, Hon. David F., Deputy Assistant Secretary for East Asia, 
  Office of Security and Defense, U.S. Department of Defense, 
  Washington, DC.................................................     9
    Prepared statement...........................................    12
Rubio, Hon. Marco, U.S. Senator from Florida, opening statement..    17
Yun, Hon. Joseph Y., Acting Assistant Secretary, Bureau of East 
  Asian and Pacific Affairs, U.S. Department of State, 
  Washington, DC.................................................     4
    Prepared statement...........................................     5

                                 (iii)




 REBALANCE TO ASIA II: SECURITY AND DEFENSE; COOPERATION AND CHALLENGES

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin, Murphy, Rubio, and Johnson.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, good afternoon. Let me welcome you 
all to the Senate Foreign Relations Subcommittee on East Asian 
and Pacific Affairs.
    Senator Rubio, the ranking Republican member, will be 
joining us shortly.
    This is our second hearing on the Rebalance to Asia policy. 
In our first hearing, we assessed the rebalance values element, 
including human rights, democracy, and good governance 
programs, and I thought that hearing was very, very 
constructive.
    This hearing will deal with the defense and security 
challenges in the East Asia-Pacific region. This is 
particularly timely given the Shangri-La dialogue on defense 
that will take place on May 31. In addition, General Dempsey is 
visiting the region this week. So I think the timing of this 
hearing is particularly appropriate.
    In this hearing we will look at whether the rebalance is on 
track to achieve the administration's goal of strengthening 
strategic alliances, deepening partnerships, building a stable, 
productive, and constructive relationship with China, and 
empowering regional institutions to tackle shared challenges 
and peacefully resolving conflicts.
    A stable and cooperative regional security environment is 
necessary for the free flow of commerce and ideas. The region 
is undergoing a significant transition with signs of security 
dilemmas and potential arms races. Our constructive engagement 
in the region can help ensure the transition takes place in a 
positive way, ensuring regional peace and security.
    A rebalance is about supporting our allies, partners, and 
interests in the region as together we face pressing security 
challenges. For the last six decades, our policy has been about 
constructive engagement, developing partnerships, and working 
with countries in that region. And for the last six decades, we 
have seen countries such as Japan, South Korea, and China 
develop sophisticated economies, which certainly furthers 
United States interests in the region.
    But it is particularly appropriate that we have this 
hearing today considering the escalating threat of North Korea, 
the increasing prevalence of cyber attacks, which is becoming a 
dominant concern on our security interests, and the rising 
maritime tensions in the South and East China Seas, including 
piracy and other transnational crime. And we must continue to 
engage China in a constructive dialogue on all these issues. We 
must deepen our United States-China military-to-military 
dialogue to address many of the sources of the insecurity 
between our two countries. We need China to understand and 
respect our cyber security concerns. The April 13 agreement to 
establish a United States-China cyber security working group is 
an encouraging development and I look forward to our witnesses' 
observations as to the merit of that agreement.
    China's support for the recent U.N. Security Council 
resolution on North Korea was a positive move toward securing 
peace in the region. I am pleased to hear that China remains 
fully committed to the six-party talks goal of verifiable, 
peaceful, denuclearization of the Korean Peninsula.
    On North Korea more broadly, we must remain vigilant and 
take threats seriously while not rewarding bad behavior. We 
must continue to work closely with our allies, Japan and Korea 
in particular, to maintain security on the Korean Peninsula 
while ultimately pursuing denuclearization. The Helsinki 
process model could be helpful in dealing with North Korea as a 
confidence-building measure to discuss not just 
nonproliferation, as the six-party talks did, but security, 
economics, environmental, and human rights concerns.
    We look forward to talking more about our new Republic of 
Korea-United States combined counterprovocation plan and 
celebrating the 60th year of our strong alliance with the 
Republic of Korea when President Park Geun-hye arrives in 
Washington next month.
    On maritime conflicts, it is in our national interest to 
protect free commerce along the world's busiest maritime trade 
routes and ensure unimpeded access to the maritime commons of 
the Asia-Pacific. To that end, we must support the 
establishment of rules-based regional norms which discourage 
coercion and the use of force. Instability undercuts economic 
growth for the United States and for all of Asia. Competition 
for energy and fishery resources only exacerbate the rising 
maritime tensions. Countries with competing claims should 
explore joint management of resources to promote peaceful 
coexistence.
    I was encouraged by the April 10 agreement between Japan 
and Taiwan to jointly share fishing resources in disputed areas 
of the East China Sea. Malaysia and Brunei established a joint 
petroleum revenue area in 2009. These examples represent 
significant diplomatic achievements which I hope will be 
followed by other such agreements. The Association of Southeast 
Asian Nations and, in particular, Indonesia, has shown active 
leadership on these issues. I hope that an ASEAN-China 
agreement can be reached on a binding code of conduct for the 
South China Sea.
    The United Nations Convention on the Law of the Sea, 
UNCLOS, is another important means to building a rules-based 
order for the region. We should ratify it, but even without 
Senate ratification, we must continue to adhere to UNCLOS 
practices.
    Our rebalance also must embrace critical military-to-
military programs to help professionalize the East Asian 
region's militaries to better address regional challenges. But 
equally critical is how we engage these militaries to integrate 
core U.S. values: human rights, the rule of law, and civilian 
control of the military. In Indonesia, our military-to-military 
relationships helped them successfully transition to civilian 
control and promote rule of law.
    But emerging partnerships also present significant 
challenges. Burma has made progress, but we must engage their 
military in a careful, measured, and systematic fashion. We 
must continue to press Burmese forces to make progress on human 
rights and to protect and respect all ethnic groups.
    Within every challenge lies opportunity. Positive military-
to-military engagement creates opportunities to advance human 
rights. Likewise, the threat of North Korea is an opportunity 
to work more closely with Japan, Korea, and China to find a 
solution. The rebalance will shift more resources and attention 
to the region and create more opportunities for positive 
engagement.
    I look forward to hearing more from our witnesses about the 
state of our alliances, our programs to make the region safer, 
and how we will maintain the rebalance in the face of our 
overall defense spending cuts.
    I thank our witnesses from both our panels for being here. 
On our first panel, we are pleased to have with us today Joseph 
Yun, Acting Assistant Secretary of State for the Bureau of East 
Asian and Pacific Affairs at the Department of State. Mr. Yun's 
previous assignment was as Principal Deputy Assistant Secretary 
in the Bureau of East Asian and Pacific Affairs. He was sworn 
in as Deputy Assistant Secretary on August 10, 2010. Mr. Yun is 
a career member of the Senior Foreign Service class of minister 
counselor. His overseas assignments have been in South Korea, 
Thailand, France, Indonesia, and Hong Kong.
    We are also pleased to have with us today the Honorable 
David F. Helvey, Deputy Assistant Secretary of Defense for East 
Asia in the Office of the Under Secretary of Defense for 
Policy. Previously he served as the Acting Deputy Assistant 
Secretary of Defense and was the principal director for East 
Asia in the Office of the Assistant Secretary of Defense for 
Asian and Pacific Security Affairs. Prior assignments in the 
Office of Secretary of Defense include Country Manager for 
China, Director for China, Taiwan, and Mongolia, and Senior 
Advisor for China Policy and Integration. He has also served as 
a senior intelligence analyst for China military and political 
affairs at the Defense Intelligence Agency.
    So we have two experts on our first panel that can help us 
understand the security challenges that we face in Asia today 
and how the rebalance will be implemented to advance U.S. 
interests.
    So we will start with Mr. Yun.

 STATEMENT OF HON. JOSEPH Y. YUN, ACTING ASSISTANT SECRETARY, 
 BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Yun. Thank you very much, Mr. Chairman, and my thanks 
also to Senator Murphy and for inviting myself and my good 
friend David to testify on this important topic today.
    Before we begin, I would like to thank you for your work on 
building bipartisan consensus on engaging the Asia-Pacific. As 
you have already noted, this is the second hearing under your 
chairmanship already on this topic of Rebalance to Asia.
    With your permission, Mr. Chairman, I would like to make 
brief remarks and submit a more detailed written response for 
the record.
    U.S. policy toward the Asia-Pacific reflects the 
recognition that U.S. prosperity and security will be defined 
increasingly by what happens in the region and how we engage 
the region. The Asia-Pacific is home to two-thirds of the 
world's population and many of the world's fastest growing 
economies. It offers enormous opportunities but also challenges 
for U.S. political and economic interests. The annual flow of 
U.S. investment to East Asia nearly doubled from $22 billion in 
2009 to $41 billion in 2011. U.S. exports to the Asia-Pacific 
now total over $320 billion, and the region is home to 3 of the 
top 10 U.S. export markets.
    This region is also home to some of our most enduring 
security partners. In Japan, we currently station close to 
50,000 Active-Duty U.S. servicepersons. In Korea, we have some 
30,000 servicepersons, and of course, we also have important 
treaty alliances with Australia, the Philippines, and Thailand.
    As our response to recent events in North Korea 
demonstrate, there is no uncertainty about United States 
military and defense resolve in responding to security 
challenges in the region. And of course, my colleague from the 
Pentagon, Mr. Helvey, will get into more detail on these 
issues.
    However, Mr. Chairman, it is also very important to note 
that security and defense cooperation is only one part of our 
engagement. Many challenges, both present and future, will be 
nonmilitary. So as we deepen our military engagement, we are 
also engaging with our partners and allies in our economic, 
political, and people-to-people initiatives to demonstrate our 
longer term commitment to the region. We do this by making 
progress on bilateral and multilateral trade and investment 
agreements. We do this by coordinating on law enforcement and 
counterterrorism initiatives, by adopting programs to combat 
trafficking, and by advancing good governance, democracy, and 
human rights under the important pillar of our active 
participation in building regional architecture that 
strengthens stability, security, and economic growth throughout 
the region. To this end, we will deploy our most senior 
officials.
    In June, Secretary Kerry will participate in the ASEAN 
Regional Forum ministerial meetings, and in July, Secretary 
Kerry and Treasury Secretary Lew will be joined by their 
Chinese counterparts for the fifth meeting of the U.S.-China 
Strategic and Economic Dialogue. In October, President Obama 
will attend the APEC summit in Bali and his third East Asia 
summit and his fifth U.S.-ASEAN summit in Brunei. We believe 
these multilateral institutions will deepen our security ties 
and strengthen our alliances in the region.
    Mr. Chairman, I also want to emphasize by taking this 
opportunity that we in the State and Defense Department have 
the closest of coordination to ensure our military presence and 
operations in the region match our diplomatic goals and 
objectives. These include what we do together to advance 
freedom of navigation, to counter proliferation and counter 
terrorism, and what we do together for the respect of human 
rights and the rule of law. And they also include how we 
operate for humanitarian assistance and disaster relief and, of 
course, our Nation's own ability to respond to security 
challenges of the region. And as you know, Mr. Chairman, in 
most of our missions in the region, we have the defense 
attache's office that reports to the chief of mission and works 
very closely with Foreign Service officers from the State 
Department.
    An example of how we are doing this is our close 
cooperation with Japan on consolidation and realignment issues 
of our forces there, which seeks to maintain a sustainable 
military presence and preserve peace and security in the 
region.
    As we continue to work with DOD to enhance our partnership, 
build local capacity to deal with threats and disasters, and to 
promote democratic values, our security assistance resources 
are very important. In particular, I would highlight foreign 
military financing, FMF, and international military education 
and training, IMET. Those funds have been critical in our 
engagement in the 
region.
    Through these assistance programs and working together with 
DOD, it remains vital that the United States continues to 
demonstrate, through intensive and sustained nonmilitary 
engagement as well, our firm and unwavering commitment to the 
region.
    Thank you, Mr. Chairman, for inviting me to testify. I am 
very pleased to answer any questions you and the members of the 
committee may have.
    [The prepared statement of Mr. Yun follows:]

                  Prepared Statement of Joseph Y. Yun

    Mr. Chairman, Senator Rubio, and members of the subcommittee, thank 
you very much for inviting me here today to testify on this important 
topic. I would like to thank you for your work to build a bipartisan 
consensus on the importance of engaging the Asia-Pacific region and 
advancing U.S. interests there. We value working with you and look 
forward to continuing to work closely with you and other Members of 
Congress in the future.
    United States policy toward East Asia and the Pacific reflects the 
profound recognition that the future prosperity and security of our 
Nation will be defined by events and developments in the region. While 
our commitments to other regions remain strong, it is also important to 
recognize just how significant East Asia and the Pacific are to the 
United States. Home to two-thirds of the world's population and the 
world's fastest growing economies, the Asia-Pacific offers growing 
opportunities and challenges for U.S. strategic interests. Placing U.S. 
interests in context, the annual flow of U.S. investment into East Asia 
has increased from $22.5 billion in 2009 to $41.4 billion in 2011. U.S. 
exports to the Asia-Pacific totaled over $320 billion in 2012 after 
growing nearly 8 percent since 2008.
    As the region rapidly grows and transforms, visible, sustained, 
U.S. commitment is increasingly essential.
    Our commitment to the Asia-Pacific region is demonstrated in a 
number of ways, including through security and defense-related 
cooperation. However, I would like to emphasize that security and 
defense cooperation is only one part of the policy and to provide you 
with the larger context of our engagement with the region.
    Though we continue to face military challenges in the region, 
nonmilitary issues are critically important to American and East Asian 
prosperity and security and necessitate a broad diplomatic approach. 
Although our security and defense commitments remain strong and 
unequivocal, we must put more emphasis on strengthening our nonmilitary 
engagement.
    As our response to recent events in North Korea demonstrates, and 
as Secretary Kerry emphasized on his recent trip to Beijing, Tokyo, and 
Seoul, there is no doubt about U.S. military resolve in the region when 
it comes to threatening behavior. Indeed, our allies and partners 
continue to tell us that our clear and visible military presence is 
reassuring to them and contributes to the stability of the region. But 
what they also tell us is that, as we deepen our military engagement, 
we should continue also to emphasize the diplomatic, development, 
economic, and people-to-people engagement in order to demonstrate our 
longer term commitment to our rebalance strategy. To be sure, there are 
those in the region who have doubts about our ability to sustain our 
high level of engagement, particularly in the current fiscal 
environment. But we continue to reassure them that our commitment is 
strong and enduring, because, as a Pacific nation, the United States 
prosperity and security are inherently tied to the region.
    To date we have demonstrated our commitment through intensive 
engagement at every level, including interacting with our regional 
partners at the highest levels. Last year, that high-level engagement 
included 35 bilateral meetings, 6 trilateral meetings, 32 multilateral 
meetings, and numerous strategic dialogues. The result of these 
engagements was progress on trade agreements, closer coordination on 
law enforcement and counterterrorism initiatives, and advancing 
antihuman trafficking measures, and other efforts to advance good 
governance, democracy, and human rights in the region. And we will 
continue to press forward this year. In June, Secretary Kerry will 
participate in the ASEAN Regional Forum ministerial meetings in Brunei, 
demonstrating U.S. commitment to the region and support for 
strengthened regional institutions. At the fifth meeting of the U.S.-
China Strategic and Economic Dialogue (S&ED) in Washington in July, 
Secretary Kerry and Treasury Secretary Lew will be joined by their 
Chinese counterparts for a discussion of challenges and opportunities 
on a range of bilateral, regional, and global issues. In October, 
President Obama will attend the APEC summit in Bali, his third East 
Asia summit in Brunei, and the Global Entrepreneurship summit in Kuala 
Lumpur, all of which showcase our commitment to comprehensive regional 
engagement.
    Our cooperation with the region is not limited to top-level 
engagement. It also extends to ordinary citizens, including young 
people. Public diplomacy initiatives, such as educational and cultural 
exchange programs with citizens from across the Asia-Pacific region, 
are increasing grassroots support for partnering with the United 
States. In addition, we are utilizing new outreach platforms such as 
social media and the innovative American cultural spaces in Rangoon and 
Jakarta, to reach younger audiences, highlight the multidimensional 
nature of U.S. foreign policy, and foster direct and long-term 
relationships with broader and more diverse populations.
    Our Asia-Pacific policy is multifaceted. Security takes a number of 
forms and should not be defined or characterized solely by our military 
engagement. Here are the key areas of our focus.
    Asia's future stability and security are linked to its prosperity 
and economic development. We are boosting U.S. trade in the region, 
increasing investment flows, and deepening economic integration, all of 
which will benefit U.S. businesses and help create jobs here at home, 
while also creating improved and more inclusive development outcomes in 
the region itself. Inward investment accounts for over 2 million 
American manufacturing jobs, a number we are working to increase. 
Similarly, exports generate over 10 million jobs for American workers. 
Asia's prosperity is America's prosperity, and we will continue our 
work to secure markets for U.S. goods and services and welcome 
tourists, students, and investors to our shores. Establishment of the 
Trans-Pacific Partnership (TPP) trade agreement with 11 partners will 
be one of the cornerstones of our ``rebalance'' toward the Asia-
Pacific. Our promotion, through the TPP, APEC, and elsewhere, of a 
regional economic architecture in which the rules are open, 
transparent, free, and fair helps U.S. businesses gain access to this 
dynamic region and further integrate the regional economy under a set 
of high-standard trade and investment rules. Meanwhile, State 
Department missions in the field are stepping up their commercial 
promotion efforts to supplement the Commerce Department's mission to 
promote exports, tourism, education, and investment opportunities 
within the United States.
    We are also engaging with an emerging and growing regional 
architecture of robust regional institutions and multilateral 
agreements that result in a more positive political and economic 
environment for the United States and strengthen regional stability, 
security, and economic growth. Multilateral institutions are 
positioning themselves to better handle territorial and maritime 
disputes such as in the South China Sea. Through engagement with 
multilateral structures such as the Association of Southeast Asian 
Nations (ASEAN), we are able to encourage a peaceful resolution of 
contentious transnational issues and discourage escalation of tensions.
    By developing our relationships with partners and emerging leaders, 
and deepening cooperation across the region, we are strengthening U.S. 
national security, promoting economic growth and trade, and creating a 
better platform from which to tackle transnational challenges such as 
terrorism, organized crime, and trafficking.
    This kind of cooperation very much includes China. We want China 
and the countries of the region to partner not only with us, but with 
each other and multilaterally so that we can deal with shared 
challenges like cyber security, climate change, and North Korea, which 
were significant points of discussion with the Chinese on Secretary 
Kerry's most recent trip.
    At the heart of our efforts to contribute to a peaceful, 
prosperous, secure, and stable region is a desire to expand democratic 
development and human rights. Our commitment to advancing freedom, 
democracy, and the rule of law has manifested itself in our steadfast 
support for reform and opening in Burma, where positive developments on 
a range of concerns of the international community have allowed us to 
open a new chapter in bilateral relations. However, there is still a 
great deal to be done, for example in terms of the widespread abuses 
targeting Muslims, including ethnic Rohingya. We will continue to press 
for improvements with governments that fall short on human rights and 
democracy issues while supporting those promoting the values we share. 
We work closely with key allies and partners to find ways to support 
the return of democracy, rule of law, and respect for human rights 
standards to Fiji.
    So, as we deepen our traditional security ties and build on our 
alliances to deter and defend against military and nonmilitary threats 
to the United States and the region, we will continue to seek peaceful 
resolution of disputes and confront emerging challenges that could harm 
U.S. national security interests. We will do so in a way that engages 
our partners, helps build multilateral cooperation and solutions, 
encourages economic growth and prosperity, and promotes democratic 
development and human rights. Each element of our engagement strategy 
is mutually reinforcing. And thus far, Asian states have warmly 
welcomed our efforts.
    Of course, the stability that has enabled the Asia-Pacific's 
remarkable economic growth over the past decade has long been upheld by 
the U.S. military. And we are seeking to ensure that our military 
activities, force posture, and presence enable us to improve our 
cooperation with our allies and partners and respond to current as well 
as emerging security challenges and threats. Together with our 
Department of Defense colleagues, we have begun work on a comprehensive 
defense strategy review to develop a force posture and presence in the 
region that can better respond to nontraditional security threats, 
protect allies and partners, and defend U.S. national interests. And in 
our military-to-military engagement throughout the region, we continue 
to emphasize norms regarding respect for human rights, civilian 
populations, and the law.
    As our military cooperation around the Asia-Pacific continues to 
evolve and adapt to 21st century challenges, we strive to optimize our 
military force posture so that it is geographically distributed, 
operationally resilient, and politically sustainable. An example of how 
we're doing this is our close cooperation with Japan on consolidation 
and realignment issues.
    The Japanese Government's March submission of the landfill permit 
request for construction of a replacement Marine Corps Air Station to 
the Okinawa Governor, together with the April bilateral announcement of 
a Consolidation Plan, are significant milestones in our bilateral 
partnership and important steps closer to realizing the vision of the 
2006 Realignment Roadmap. Both sides have reaffirmed that the Futenma 
Replacement Facility (FRF) at Henoko remains the only viable 
alternative to the current location of Marine Corps Air Station 
Futenma.
    We take our alliance responsibilities seriously. The Consolidation 
Plan will help us maintain a sustainable U.S. military presence in 
Japan with a reduced impact on crowded urban areas. This step will also 
help ensure the strength of the U.S.-Japan Alliance and promote peace, 
stability, and prosperity in the region. Due to its geographic 
location, Okinawa plays a crucial role in the defense of Japan and the 
preservation of peace and security in the region. U.S. forces on 
Okinawa are ready to respond to regional contingencies, including 
humanitarian crises and natural disasters. We recognize the impact that 
our bases have on local communities, and we are committed to continuing 
to address those concerns.
    In addition to this work with Japan, we are also strengthening and 
modernizing our longstanding treaty alliances with the Republic of 
Korea (ROK), Australia, Thailand, and the Philippines. This year marks 
the 60th anniversary of our alliance with the Republic of Korea, a 
linchpin of security and prosperity in Northeast Asia. Our cooperation 
has evolved over the years into a truly global partnership, and we are 
working together in places such as Afghanistan, South Sudan, and off 
the coast of Somalia. The United States is steadfast in its commitment 
to the defense of the ROK, and both governments fully support the 
modernization of our alliance, including the U.S.-ROK Strategic 
Alliance 2015 plan. Strengthening our alliance includes both preparing 
for and deterring North Korean aggression. Building on our successful 
counterterrorism partnership with the Philippines, we are expanding our 
security engagement to focus on building the Philippines' military and 
law enforcement agencies' indigenous capacity in order to address areas 
of common interest in maritime security, disaster relief, and 
nonproliferation.
    Our force posture initiative with Australia, another close ally, 
supports a more flexible and resilient capability to respond to 
contingencies across the region and globally. Our Defense Strategic 
Talks with Thailand have yielded a new Joint Vision Statement that is a 
blueprint for our 21st century security partnership and a reflection of 
Thailand's key role in our rebalance to the Asia-Pacific. Given the 
strategic importance and collective significance of Southeast Asia and 
the Pacific, we have increased our military engagement with Indonesia, 
Vietnam, Singapore, Malaysia, Brunei, New Zealand, and the Pacific 
Islands. The U.S. Pacific Fleet's Pacific Partnership program brings 
the best of our partners' military expertise and capabilities to 
multiple Pacific Island countries to help meet critical infrastructure, 
water, sanitation, and health challenges.
    We also continue to seek improved military-to-military relations 
with China by advancing our successful high-level dialogues and 
exchanges, as well as expanding our cooperation on counterpiracy, 
peacekeeping, and humanitarian assistance and disaster relief 
activities. Strengthening our military and broader economic and 
security relationship with China is a critical component of our 
rebalance. Let me be clear that we have no interest in containing 
China, but rather our policy is designed to increase cooperation with 
China on a wide range of bilateral, regional, and global issues.
    The United States has also played an important role in ensuring 
continued cross-strait stability, consistent with the Taiwan Relations 
Act and our one-China policy. The United States makes available to 
Taiwan defense articles and services necessary to enable Taiwan to 
maintain a sufficient self-defense capability. This longstanding policy 
contributes to the maintenance of peace and stability across the Taiwan 
Strait, and we welcome the progress that has been made in cross-strait 
relations in recent years.
    Turning to Southeast Asia, our engagement builds upon the 
principles of good governance and respect for human rights. Following 
the restart of our military relationship with Indonesia after that 
country's democratic transformation, it remains important to continue 
to provide technical assistance and support to Indonesia's military 
reform, professionalization, and modernization process. Other 
priorities in the military-to-military relationship include a focus on 
maritime security and interoperability to provide humanitarian 
assistance and disaster relief. These same principles also apply to 
assistance programs that support the Indonesian National Police--a 
significant contributor to security forces and the primary implementer 
of counterterrorism strategies and programs in Indonesia. Among 
countries in Southeast Asia, Indonesia provides the greatest number of 
troops to peacekeeping missions worldwide and is also building a 
training center for peacekeepers that the U.S. Government strongly 
supports.
    In Burma, we are increasingly hearing from civil society activists 
and other reform advocates that the United States can and should help 
the Burmese military shed its legacy of decades of oppressive rule to 
become a modern force subordinate to civilian rule that respects human 
rights and is held accountable for its actions. To that end, we are 
currently looking at ways to support nascent military engagement--such 
as exposure to standards on human rights, international humanitarian 
law, humanitarian assistance, and civilian-control of the military--
that would encourage further political reforms. We continue to ask the 
Burmese Government to demonstrate concrete progress in achieving 
respect for human rights, national reconciliation, democratization, and 
an end of military ties to North Korea.
    While bilateral efforts across the Asia-Pacific are demonstrating 
positive results, we are also working trilaterally. Our trilateral 
defense talks, including those with Japan and Australia and with Japan 
and the Republic of Korea, help coordinate our defense policies, and in 
tight budget times, reinforce synergies and promote interoperability to 
deal with regional and global challenges. These trilateral arrangements 
allow us to work together to address a range of issues, such as 
humanitarian disaster response efforts and counterpiracy operations, 
while leveraging and learning from major allies' knowledge and 
experience on security issues from across the region. They also ensure 
that, working together, we are better able to coordinate on threats 
such as those from North Korea.
    We are working with regional partners, including China, through 
numerous mechanisms such as the ASEAN Regional Forum (ARF) and Asian 
Defense Ministerial Mechanism Plus to build military and civilian 
capacity to respond to natural disasters and to support humanitarian 
relief efforts. Following the devastating experiences of the 2010 
earthquake, tsunami, and ensuing Fukushima nuclear disaster in Japan 
and the 2004 Indian Ocean tsunami, nations in the Asia-Pacific are 
keenly aware of the importance of regional cooperation to respond to 
natural disasters. Since 1995, the United States has invested more than 
$155 million in disaster risk reduction efforts in the region and in 
2012 provided an additional $23 million for disaster risk reduction 
programs that save lives at the time of disasters. From May 7 to 11, 
the United States will also participate in the third ARF Disaster 
Relief Exercise (DiREX) to be held in Thailand. The Pacific Command 
(PACOM) sponsors a range of exercises hosted by our partner nations 
that include broad regional participation. My Department of Defense 
colleague can speak more specifically about those exercises, but I 
would stress the strong political will to promote closer cooperation, 
build on essential capabilities, and ensure that, in the face of 
disaster or threat, the United States and its partners are able to 
operate effectively and respond smoothly together.
    The Department of State works closely with the Department of 
Defense and PACOM to support military engagement throughout the region 
in a way that enhances our partnerships, builds local capacity to deal 
with threats and disasters, and promotes democratic values and 
development. For the United States to continue to meet our security 
objectives in the region and build long-term, meaningful partnerships 
to deal with emerging challenges, security assistance resources are 
critical to our mission. In particular, Foreign Military Financing 
(FMF) and International Military Education and Training (IMET) programs 
play a key role by building partner capacity, including strengthening 
maritime domain awareness capabilities, working with partners as they 
develop and professionalize their armed forces, and enhancing our 
partner capabilities and interoperability to work with the United 
States to address emerging challenges, both internationally, and in the 
region.
    Our engagement on the military front is formulated in concert with 
our allies and partners in the region and will continue to reinforce 
the other aspects of our Asia-Pacific policy. Our security efforts will 
continue to underpin stability, and provide reassurance to the region 
as we concurrently focus on fostering economic growth, increasing 
coordination on transnational issues, strengthening people-to-people 
ties, and encouraging democratic development. It is increasingly vital 
for the United States to demonstrate in concrete terms our firm and 
unwavering commitment to the Asia-Pacific region, not only through our 
military presence and alliances, but also through our engagement in the 
full range of issues important to countries in the region.
    Thank you, Mr. Chairman, for inviting me to testify on our 
engagement with and commitment to the Asia-Pacific region. I am pleased 
to answer any questions you may have.

    Senator Cardin. Thank you very much.
    Secretary Helvey.

 STATEMENT OF HON. DAVID F. HELVEY, DEPUTY ASSISTANT SECRETARY 
FOR EAST ASIA, OFFICE OF SECURITY AND DEFENSE, U.S. DEPARTMENT 
                   OF DEFENSE, WASHINGTON, DC

    Mr. Helvey. Mr. Chairman, Senator Rubio, and members of the 
subcommittee, thank you very much for inviting me here today to 
testify on this important topic.
    I would like to commend the committee for its ongoing 
efforts to highlight the challenges and opportunities that the 
United States faces in the Asia-Pacific.
    As President Obama has stated, the decision to rebalance 
toward the Asia-Pacific reflects a fundamental truth: the 
United States has been and always will be a Pacific nation. 
Generations of U.S. service men and women have fought to help 
advance the security of this region. The efforts help support 
our fundamental goal in the Asia-Pacific to advance security so 
that broader efforts to promote prosperity and to expand human 
dignity across the Asia-Pacific region will continue to grow 
and to flourish.
    The core element of the Department of Defense's approach to 
the Asia-Pacific remains our network of alliances and 
partnerships. Together with our allies, we are working to 
reinvigorate and modernize these relationships to ensure they 
remain relevant to the challenges that we will face in the 
future.
    For example, in Australia, we are enhancing our combined 
defense posture and we recently signed a space situational 
awareness sharing agreement, the first bilateral arrangement of 
its kind.
    In Japan, we continue to deepen our bilateral efforts on 
ballistic missile defense, as most recently demonstrated by our 
plan to introduce a second ground-base X-band radar, TPY-2 
radar.
    In Korea, in the face of continued provocations from the 
Democratic Peoples Republic of Korea, the United States has 
reaffirmed its longstanding commitment to provide and 
strengthen extended deterrence to the Republic of Korea using 
the full range of United States military capabilities.
    Working with the Government of the Philippines, we are 
developing a long-term plan to enhance their maritime 
capabilities, and we are also jointly examining options to 
increase our rotational presence there.
    And in Thailand, we reached a historic milestone last 
November when we jointly signed a new United States-Thai joint 
vision statement for the defense alliance, the first 
foundational alliance document we have had with Thailand in 
over 50 years.
    Beyond the progress we are making in modernizing our 
longstanding treaty alliances, we are also enhancing our 
defense relationships with regional partners. We are 
particularly pleased by the progress we continue to make in 
deepening our defense partnership with India where Deputy 
Secretary of Defense Carter is spearheading an initiative to 
expand our bilateral defense trade and to increase coproduction 
and codevelopment.
    In Southeast Asia, we are excited by the growing defense 
relationships with important regional partners such as 
Indonesia and Vietnam.
    And in Oceania, we have overcome longstanding obstacles in 
our military-to-military relationship with New Zealand that 
will allow exciting operational cooperation that we have not 
seen for over 25 years, including military staff talks and ship 
visits to U.S. military ports.
    The United States-China relationship is also a central part 
of our overall rebalance efforts. We are continuously pursuing 
a more sustained and substantive military-to-military 
relationship, which is underscored by the chairman's recent 
visit to China. We believe it is not only in the interests of 
both China and the United States, but also in the region as a 
whole. In all our discussions with the Chinese, we continue to 
urge the importance of increased communication between our 
militaries and enhanced transparency about the intentions 
behind China's military modernization. We are pleased to note 
that just days ago, China accepted a United States proposal to 
form a working group on cyber issues under the auspices of the 
civilian-military strategic security dialogue.
    While not a treaty ally, Taiwan is an important partner in 
the region, and we welcome the progress that has been made in 
cross-trade relations in recent years. We take seriously our 
responsibilities as laid out in the Taiwan Relations Act and 
believe that the preservation of stability in the Taiwan Strait 
is fundamental to our interests in promoting peace and 
prosperity in the Asia-Pacific.
    Alongside our attention to our bilateral relations, we are 
deepening U.S. multilateral security engagement throughout the 
region. Multilateral engagement helps us to strengthen habits 
of cooperation and to promote trust and transparency and to 
build regional capacity. This is one reason that we have 
decided to increase funding for regional exercises and our 
support for participation by developing countries in 
multilateral training and exercise programs.
    The second element of U.S. defense strategy in Asia is our 
efforts to enhance our defense posture. We have committed to 
developing a posture that is more geographically distributed, 
operationally resilient, and politically sustainable. Some key 
efforts in this 
regard include our efforts to enhance missile defense posture 
by deploying the second radar to Japan and the deployment of a 
Terminal High-Altitude Air Defense system, or THAAD, to Guam. 
The recent announcement of a new plan for the consolidation of 
the U.S. Marine Corps presence on Okinawa is another example of 
this, as are the initiation of rotations of U.S. marines to 
Darwin and the arrival just last week of the first of up to 
four littoral combat ships that will all be rotating through 
Singapore.
    The third element of our defense strategy in Asia is 
shifting our long-term capacity investments toward the Asia-
Pacific region. As the United States continues to draw down our 
military presence in Afghanistan, we are increasingly freeing 
up our capacity that can be reinvested in Asia. This includes 
our commitment to employ 60 percent of our forward-deployed 
naval forces in the Pacific by 2020, but it also includes a 
broader effort to shift air and ground capabilities, special 
operations forces, and our intelligence, surveillance, and 
reconnaissance assets back to the Asia region.
    We are also prioritizing investments in our budget to 
develop platforms and capabilities that have a direct 
applicability and use in the Asia-Pacific region. These 
investments include programs such as the Virginia class 
nuclear-powered submarine, P-8 maritime patrol aircraft, and 
the Broad Area Maritime Sensor, air dominance and strike 
capabilities such as the fifth generation Joint Strike Fighter, 
a new stealth bomber, and the KC-46 tanker replacement.
    In addition to investments in hardware and technical 
capabilities, we are also investing in our people in language 
and culture skills, regional and strategic affairs to ensure 
that we cultivate 
the intellectual capital that will be required to make good on 
our rebalance.
    The final element of our defense strategy is promoting a 
continued commitment to those principles that we believe are 
essential to building a safe and secure world where all can 
prosper. These include our commitment to free and open 
commerce, open access 
to the air, maritime, space, and cyberspace domains, adherence 
to 
the rule of law, and to the principle of settling disputes 
through peaceful means without coercion. These core principles 
guide the decisions the Department of Defense makes every day 
and connects our strategic rebalance to the values that are 
important to peace and security throughout the world.
    At its core, the Department of Defense's Rebalance to Asia 
is about supporting a system that the United States, our 
allies, and partners have benefited from for the past 60 years. 
This system has not only enabled millions to move out of 
poverty, it has also facilitated tremendous democratic reforms, 
economic growth, and prevented deadly conflicts and the 
devastating casualties and destruction that they can bring. 
That is why the United States has been deeply engaged in the 
Asia-Pacific for generations, and that is why we will remain a 
Pacific power for generations to come.
    Thank you, Mr. Chairman, again for giving me the 
opportunity to testify before your subcommittee today, and I 
look forward to answering any questions that you or your 
colleagues may have.
    [The prepared statement of Mr. Helvey follows:]

                Prepared Statement of Hon. David Helvey

    Mr. Chairman, Senator Rubio, and members of the subcommittee, thank 
you very much for inviting me here today to testify on this important 
topic. I'd like to commend the committee for its efforts to highlight 
the ongoing challenges and opportunities the United States faces in 
Asia and for its continued commitment to U.S. engagement in the Pacific 
region. We in the Department of Defense greatly appreciate the 
bipartisan support this committee has offered for growing U.S. 
engagement in Asia and we look forward to working closely with the 
Congress and our interagency colleagues to support a whole-of-
government approach in this critical region.
    As President Obama has noted, the decision to rebalance toward Asia 
reflects a fundamental truth--``the United States has been, and always 
will be, a Pacific nation.'' Generations of U.S. service men and women 
have fought, bled, and died to help advance the security of this 
region, to protect cherished freedoms and democracy, and to make 
possible the tremendous economic growth that has transformed the daily 
lives of men, women, and children across the Asia-Pacific region. And 
so, the decision to rebalance toward Asia not only reflects our belief 
that the future security and prosperity of the United States is 
dependent upon Asia's success but also reflects the deep and binding 
ties of our past.
    It is also important to note that the U.S. approach to Asia will 
continue to be, as it always has been, a whole-of-government effort. 
Our defense and security policies, while essential, do not exist in a 
vacuum, but serve to support an over-arching purpose. As we have for 
the past 60 years, the Department of Defense works to advance security 
so that broader efforts to promote prosperity and expand human dignity 
across the Asia-Pacific region will continue to grow and flourish.
    The core element of the Department's approach to the Asia-Pacific 
region remains our network of alliances and partnerships. Our treaty 
allies--Australia, Japan, the Republic of Korea, the Philippines, and 
Thailand--have formed the bedrock of our security engagement in Asia 
for over 60 years. Together with our allies, we are working to 
reinvigorate and modernize these alliances to ensure they remain 
relevant to the challenges we will face in the future.
    In Australia, we continue to broaden and deepen our robust 
relationship into new areas to meet emerging needs in both the region 
and across the globe. Our efforts to enhance our combined defense 
posture through the rotation of U.S. Marines to Northern Australia will 
provide expanded opportunities for U.S. and Australian forces to train 
and exercise together and will promote security cooperation with a wide 
range of partners in the Asia-Pacific region. Additionally, we are 
pursuing new bilateral initiatives in areas such as space and cyber 
that will be particularly relevant to global security in the 21st 
century. For example, at the Australia-U.S. Ministerial Consultations 
last year Secretary Panetta and the Australian Minister for Defence 
signed a memorandum of understanding to relocate a U.S. Air Force space 
situational awareness C-Band radar to Australia. And just last month 
the U.S. and Australia signed a Space Situational Awareness (SSA) 
sharing agreement--the first bilateral arrangement of its kind--which 
will permit an advance exchange of this data.
    In Japan, we have seen strong momentum on the defense side over the 
last year. We are taking steps to further strengthen our alliance, and 
to ensure its relevance against the full spectrum of possible regional 
security challenges. Through our ongoing Roles, Missions, and 
Capabilities dialogue, we are exploring ways to improve 
interoperability and strengthen bilateral defense cooperation. We are 
discussing the future of our alliance to ensure that the alliance 
remains adaptive in the face of 21st century threats. We continue to 
deepen our bilateral efforts to deter ballistic missile threats in the 
region and beyond. Japan remains our most important partner in regional 
ballistic missile defense, as most recently demonstrated by our plan to 
introduce a second TPY-2 radar. This radar will provide critical added 
protection against continued North Korean threats and provocations. We 
are also steadily upgrading our capabilities resident in Japan, as the 
recent introduction of the MV-22 into Okinawa, and our plans to 
introduce the F-35, demonstrate.
    In Korea, our shared efforts to establish a Strategic Alliance 2015 
are ensuring a shared vision for the future that will deter aggression 
and maintain peace on the Korean Peninsula as well as expand security 
cooperation across the region. The foundation of our alliance remains a 
steadfast commitment to maintain peace on the Korean Peninsula. North 
Korea remains a security threat because of its pursuit of nuclear 
weapons and long-range ballistic missiles, its willingness to 
proliferate weapons in contravention of its international agreements 
and United Nations Security Council Resolutions, and its willingness to 
engage in provocative and destabilizing behavior. In the face of these 
provocations, the United States has reaffirmed its longstanding 
commitment to provide and strengthen extended deterrence for the ROK, 
using the full range of U.S. military capabilities, including the 
nuclear umbrella, conventional strike, and missile defense 
capabilities. Through a bilateral Extended Deterrence Policy Committee, 
our two countries are developing a tailored deterrence strategy to 
improve the effectiveness of extended deterrence against North Korean 
nuclear and WMD threats.
    As the United States rebalances to the Asia-Pacific, we look to our 
key allies, Japan and the Republic of Korea, to help us shape and 
influence the regional agenda. We have put significant effort into 
developing the Defense Trilateral Talks, which gives us the opportunity 
to engage in dialogue with counterparts from Japan and the ROK and seek 
areas of trilateral cooperation such as HADR, information-sharing, and 
maritime security. We continue to work toward trilateral intelligence 
sharing and joint operations. Trilateral cooperation strengthens 
deterrence and contributes to stability in the region, especially in 
the face of North Korea's ongoing missile programs and efforts to 
develop nuclear weapons.
    We are also ensuring our alliances with the Philippines and 
Thailand are robust and able to contribute to security across the 
region. Working with the Government of the Philippines, we are 
developing a long-term plan to enhance the capabilities of the 
Philippine Armed Forces, especially in the maritime domain. In addition 
to our regular bilateral trainings which enhance interoperability 
between the U.S. and Philippine militaries, we are jointly examining 
options for increasing our rotational presence in ways that serve our 
mutual interests.
    In Thailand, we reached a historic milestone last November when 
Secretary Panetta and Thailand's Minister of Defense jointly signed a 
new U.S.-Thai Joint Vision Statement for the Defense Alliance, the 
first foundational alliance document in over 50 years. Our new vision 
directs the relationship in important areas such as improving readiness 
and interoperability and enhancing regional security in Southeast Asia 
and beyond.
    Beyond the progress we are making in modernizing our longstanding 
treaty alliances, we are also enhancing our defense relationships with 
regional partners. One of our most important relationships is our 
bilateral defense partnership with India. India and the United States 
share common values and interests, and we support India's growing role 
in strengthening regional security, protecting shared domains, 
countering terrorism, and bolstering international nonproliferation.
    Our defense relationship with India has never been stronger, and it 
continues to mature on both the strategic and operational levels. We 
are particularly pleased by the progress we continue to make in our 
military-to-military engagements and expanded bilateral defense trade. 
The United States and India are working together to address 
bureaucratic impediments that hamper our ability to fully realize the 
possibilities of our defense partnership. Deputy Secretary Carter has 
spearheaded an initiative to streamline our bureaucracy that will help 
better realize the potential of our defense trade relationship, 
including with efforts to increase coproduction and codevelopment.
    In Southeast Asia and Oceania we are excited by the growing defense 
relationships with important regional partners. In recent years we have 
been working closely with the Indonesia Ministry of Defense to support 
their efforts to establish more capable, responsible, and transparent 
defense institutions. This includes training and discussions to enhance 
civilian institutional leadership and capacity-building, as well as 
operational cooperation in areas such as humanitarian assistance and 
international peacekeeping.
    Similarly, we have made tremendous strides in our bilateral defense 
relationship with Vietnam. In 2011, we signed the first bilateral 
Defense Memorandum of Understanding between our two countries, 
expanding cooperation beyond legacy of war issues into areas of 
importance for the region, including search and rescue operations and 
disaster relief. And with New Zealand, we have overcome longstanding 
obstacles to enter a new era of military-to-military relations. New 
Zealanders have fought alongside Americans in every modern war, and our 
recent signature of the bilateral Washington Declaration and subsequent 
changes of U.S. defense policy on New Zealand provides a common vision 
for defense cooperation that will allow exciting operational 
cooperation not seen for over 25 years, including military staff talks 
and New Zealand ship visits to U.S. military ports.
    We are also cautiously optimistic about the positive steps toward 
reforms that we have seen from the Burmese Government. As a result, DOD 
is beginning a cautious and calibrated defense engagement intended to 
advance the ongoing reform movement and encourage adherence to 
international norms of behavior in the areas of human rights and rule 
of law. This engagement is very limited and has included DOD 
participation in the 2012 U.S.-Burma Human Rights Dialogue led by the 
State Department and the participation of two mid-level Burmese 
military officers to observe humanitarian portions of the 2013 COBRA 
GOLD Exercise. We look forward to discussing with Congress the 
appropriate scope and scale of defense engagement. Normalization of 
defense relations can only occur if Burma continues its efforts to 
democratize, improves its human rights record, implements national 
reconciliation efforts with ethnic groups, and severs its military ties 
to North Korea.
    The U.S.-China relationship is also a central part of our 
rebalancing efforts and a critical component of our efforts to broaden 
and deepen defense relations with regional partners. The United States 
welcomes a strong, prosperous, and successful China that plays a 
greater and more responsible role in world affairs. We are continuously 
pursuing a more sustained and substantive military-to-military 
relationship, which we believe is not only in the interests of both 
China and the United States, but also the region as a whole. As part of 
this effort, we are working to build practical cooperation and dialogue 
in areas of shared mutual interest. For example, we have invited China 
to participate in the annual Rim of the Pacific Exercise. We are also 
looking to expand our opportunities for frank and open dialogue, which 
we believe promotes trust and transparency, and reduces the risk of 
miscalculation or misunderstanding. To this end, we are increasing 
senior-level engagements, including visits by the Secretary of Defense, 
the PACOM Commander, the Chairman of the Joint Chiefs of Staff (who was 
just in China earlier this week), the Secretary of the Navy, and 
reciprocal visits by Chinese counterparts. Just days ago, China also 
accepted a U.S. proposal to form a working group on cyber issues under 
the auspices of the civilian-military Strategic Security Dialogue. In 
our discussions with the Chinese, we continue to urge enhanced 
communication between our militaries, and increased transparency about 
the intent behind China's military modernization effort.
    The United States has also played an important role in ensuring 
continued cross-strait stability. Consistent with the Taiwan Relations 
Act and our one-China policy, the United States makes available to 
Taiwan defense articles and services necessary to enable Taiwan to 
maintain a sufficient self-defense capability. This longstanding policy 
contributes to the maintenance of peace and stability across the Taiwan 
Strait, and we welcome the progress that has been made in cross-strait 
relations in recent years.
    Alongside our attention to bilateral relations, we are deepening 
U.S. multilateral security engagement in the region. Multilateral 
engagement helps us strengthen habits of cooperation that promote trust 
and transparency, and build regional capacity to respond to 
transnational challenges such as natural disasters, piracy, 
proliferation, and trafficking.
    We welcome the leadership of the Association of Southeast Asian 
Nations (ASEAN) and believe a strong ASEAN will be essential for 
regional peace and stability. We are particularly pleased with a 
relatively new forum, the ASEAN Defense Ministers' Meeting-Plus (ADMM-
Plus), which has made rapid progress toward action-oriented 
multilateral defense cooperation. In the few years since former Defense 
Secretary Robert Gates attended the inaugural ADMM-Plus ministerial in 
2010, the ADMM-Plus has stood up five staff-level Experts' Working 
Groups and will hold no less than three multilateral exercises this 
year. The Experts Working Groups focus on HADR, Military Medicine, 
Peacekeeping Operations, Counter Terrorism, and Maritime Security, and 
have developed work plans aimed at sharing best practices and 
undertaking practical cooperation that builds capacity and increases 
interoperability. The ADMM-Plus HA/DR-Military Medicine Exercise that 
will take place in June represents a historic advance in ASEAN-led 
defense cooperation.
    Bringing together ASEAN members, the United States, China, Russia, 
India, the Republic of Korea, and Japan, for multilateral exercises is 
critical to building regional interoperability and capacity to maintain 
peace and security and respond to shared challenges. This is one reason 
we decided to increase funding for regional exercises and support for 
the participation by developing countries in multilateral training and 
exercises.
    The second element of U.S. defense strategy in Asia is our efforts 
to enhance our defense posture. U.S. forward defense posture plays an 
important role in the Department's efforts to shape the security 
environment in Asia. Shortly after this administration came into 
office, it began to lay the intellectual foundation for the importance 
of U.S. forward presence and posture and how best to develop it in key 
regions. The 2010 QDR outlined the core elements that continue to 
inform how we are pursuing enhancements to our posture; in the Asia-
Pacific we seek a posture that is geographically distributed, 
operationally resilient, and politically sustainable. To achieve this 
posture, the Department is modernizing U.S. basing arrangements with 
traditional allies in Northeast Asia, continuing to build up Guam as a 
strategic hub in the western Pacific, and expanding access to locations 
in Southeast Asia and the Indian Ocean Region.
    As U.S. forces return from Afghanistan and reset globally, one of 
our top priorities is to have forces present and positioned in the 
Pacific to assure regional allies and partners, deter threats to 
regional stability, and prevail in conflicts if necessary. We are also 
taking steps to respond to evolving threats in the region: for example, 
in light of the growing North Korean missile threat, we are enhancing 
our missile defense posture, including a second TPY-2 radar system to 
Japan, the deployment of a Terminal High-Altitude Air Defense (THAAD) 
system to Guam, as well as the increases to our Ground-Based Mid-course 
Defense system for homeland defense.
    We are making steady progress in our efforts to realign U.S. forces 
across Japan, to ensure our presence is sustainable for the life of the 
alliance. The centerpiece of this effort is in Okinawa. We recently 
announced a new plan for the consolidation of the USMC presence on 
Okinawa, as Marines relocate to Guam and after MCAS Futenma is 
relocated to a new facility in the northern part of the island. Prime 
Minister Abe's recent submission of the landfill permit application to 
the Okinawa Governor for the Futenma Replacement Facility has 
reinforced our conviction that this plan is achievable and represents 
the best outcome for the alliance and for the people of Okinawa.
    We are also working to enhance our combined defense posture on the 
Korean Peninsula. As a part of this process, we are working with the 
Republic of Korea to complete the transition of wartime operational 
control from the ROK-U.S. Combined Forces Command to the ROK military 
by December 2015. We are also working to consolidate our footprint on 
the peninsula, a process that will result in a more efficient U.S. 
posture and that will allow us to return land in the Seoul area to the 
ROK. Over the last few years, we have made great strides in improving 
our combined defense posture by enhancing intelligence and information-
sharing, strengthening operational planning, developing capabilities to 
address the North Korean ballistic missile threat, enhancing combined 
exercises, and increasing interoperability.
    In 2011, the Prime Minister of Australia and President Obama agreed 
to establish a rotational U.S. Marine Corps presence in northern 
Australia of up to 2,500 Marines and to increase cooperation between 
our two Air Forces. The first rotation of approximately 200 U.S. 
Marines was successfully conducted from April-September of last year, 
and the second rotation of Marines arrived in Darwin last week. The 
United States also agreed to closer cooperation between the Royal 
Australian Air Force and the U.S. Air Force that has resulted in 
increased rotations of U.S. aircraft through northern Australia. These 
two initiatives further enhance the capabilities of both partners by 
increasing opportunities for combined training and enabling both 
countries to work together even more effectively to pursue common 
interests.
    Our efforts in Australia also help support our commitment to 
establish an expanded defense presence in Southeast Asia and into the 
Indian Ocean, which will ensure the United States is postured for a 
wider array of challenges we face across the region, including natural 
disasters, humanitarian crises, and the proliferation and trafficking 
of weapons of mass destruction and illicit goods. To this end, we have 
agreed with the Government of Singapore to forward deploy up to four 
Littoral Combat Ships. The first of these ships, the USS Freedom, 
arrived last week, where it was warmly received by our Singaporean 
hosts and the region more broadly.
    Similarly we are also exploring with the Government of the 
Philippines, opportunities to increase rotational presence of U.S. 
forces that are geographically distributed, operationally resilient, 
and politically sustainable.
    The third element of our defense strategy in Asia is shifting our 
long-term capacity and investments toward the Asia-Pacific region. As 
the United States continues to draw down our military presence in 
Afghanistan, we are increasingly freeing up capacity that can be 
reinvested in Asia. This includes our commitment to employ 60 percent 
of our forward-deployed naval forces in the Pacific by 2020, but it 
also includes a broader effort to shift air and ground capabilities, 
special operations forces, and ISR back to the Asian region.
    Additionally, the Department has made a long-term commitment to 
invest in critical capabilities that will sustain the United States 
ability to deter and respond to any contingency or crisis we may face 
in the region. In particular, this includes investing in those 
capabilities that will ensure U.S. forces can maintain access and the 
ability to operate freely in all environments, including those where 
our power projection operations are challenged by adversaries.
    As part of this effort, we are prioritizing investments in our 
budget to develop platforms and capabilities that have direct 
applicability and use in the Asia-Pacific region. The Department has 
also made a commitment to ensuring our newest and most cutting-edge 
technologies will be deployed first to the Asia-Pacific region. These 
investments include programs to sustain undersea dominance, such as the 
Virginia-class nuclear powered submarine, increased payload, the P-8 
maritime patrol aircraft, and the Broad Area Maritime Sensor. We are 
also focused on sustaining and expanding our air dominance and strike 
capabilities, through such investments as the fifth-generation Joint 
Strike Fighter, a new stealth bomber, the KC-46 tanker replacement, 
cruise missiles, and ISR platforms. We are also protecting our 
investments in future-focused capabilities that are so important to 
this region, such as cyber, science and technology, and space.
    In addition to investments in hardware and technical capabilities, 
we are also investing in our people: in language and culture skills, 
regional and strategic affairs--to ensure that we cultivate the 
intellectual capital that will be required to make good on our 
rebalance. And we are turning the great ingenuity of the Department to 
the Asia-Pacific region intellectually, to develop new operational 
concepts and ways of engaging partners and deterring and defeating 
adversaries.
    The final element of our defense strategy is promoting a continued 
commitment to those principles that we believe are essential to 
building a safe and secure world where all can prosper. These include 
our commitment to free and open commerce; open access to the air, 
maritime, space, and cyberspace domains; adherence to the rule of law; 
and to the principle of settling disputes through peaceful means, 
without coercion. These core principles guide the decisions the 
Department makes every day and connects our strategic rebalance to the 
values that are important to peace and security throughout the world.
    This is one reason why we continue to reiterate the importance of 
agreed-upon rules of the road in areas such as the maritime domain. 
Situations, such as those in the East and South China Sea, have the 
potential to provoke miscalculations or misunderstandings that could 
unintentionally escalate into conflict. For this reason, the United 
States has been clear about our policy in these areas: the United 
States pursues a principles-based policy on maritime disputes. The 
United States does not take a position on the question of ultimate 
sovereignty in these situations and encourages all parties to employ 
diplomatic and other peaceful avenues for resolution of these types of 
matters. The United States has a national interest in the continued 
guarantee of navigational rights and freedoms provided for under 
international law. We are particularly concerned about the potential 
for an accident or misinterpretations of tactical intentions brought 
about by the operation of vessels and aircraft in proximity to one 
another and urge all parties to remain vigilant with regard to 
adherence to safe operating procedures.
    At its core, the Department's efforts to rebalance to Asia are 
about supporting a system that the United States, our allies, and 
partners, have benefited from for the past 60 years. This system has 
not only enabled billions of individuals to move out of poverty, but 
has also facilitated tremendous democratic reforms, economic growth, 
and prevented deadly conflicts and the devastating casualties and 
destruction they can bring. The fortunes of the United States and our 
people are inextricably tied to the Asia-Pacific region. This is why 
the United States has been deeply engaged in the Pacific for centuries 
and why we will continue to remain a Pacific power in the centuries to 
come.
    Thank you, Mr. Chairman, for giving me the opportunity to testify 
before your committee today. I look forward to answering any questions 
you or your colleagues may have.

    Senator Cardin. I thank both of you for your testimony and 
for your service to our country.
    Before turning to a round of questioning, I want to 
recognize Senator Rubio for any opening comments that he would 
like to make.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman. I apologize for 
being a few minutes late. I will keep my comments brief.
    I appreciate your interest in organizing this hearing on 
what has arguably been the administration's linchpin of the so-
called rebalance toward East Asia.
    As we have read, the administration has taken high-profile 
steps to shore up the idea of a renewed focus on this important 
region, including Presidential participation in regional 
forums, the deployment of 250 marines in Australia, and 
rhetorical assurances that its request to dramatically reduce 
defense spending will not come at the expense of defense 
commitments in Asia.
    But our friends in the region are carefully watching 
whether America's stated commitments to the region are matched 
by our actions and, more importantly, by our resources, be they 
diplomatic or military. This is especially important given 
growing geopolitical competition in Asia, and the significant 
resources being spent by many countries in the region on their 
military capabilities.
    From my standpoint, it is important that we clearly 
understand that the administration's promises include things 
that are new and innovative and things that will be considered 
game changers regarding America's security commitments in the 
region. For example, I would like to see more conversation 
about how NATO or other close alliances around the world can 
contribute to this rebalance, as they have in the past in other 
parts of the world.
    I do welcome the recent deployment of military assets to 
the region, as well as the decision to increase the number of 
missile interceptors in Alaska. It is a welcome development, 
given the rhetoric emanating out of North Korea. This renewed 
focus on missile defense is important, given the President's 
earlier cuts to these programs, but the way in which 
administration officials have implied that many of these 
resources could be withdrawn do raise questions in the region 
about the duration of our commitment.
    I am very interested in asking questions. So let me just 
close by echoing what I have heard both witnesses say, and that 
is the United States has long been a Pacific power and I think 
it is critical that we continue to strengthen our existing 
alliances with Australia, Japan, South Korea, Taiwan, and we 
help these partners also strengthen their relationships to each 
other. And I also think it is a good time to reinvest in 
relationships with India and hopefully incorporate their 
security concerns into our regional engagement.
    So thank you both for your service to our country and for 
being here today and to you, Mr. Chairman, for holding this 
hearing.
    Senator Cardin. Thank you.
    Secretary Helvey, let me start with you, if I might. 
Secretary Hagel is reported to be representing the United 
States at the May 31 Shangri-La Dialogue. Can you just share 
with this committee what the United States hopes to achieve in 
its participation at this meeting?
    Mr. Helvey. Well, sir, thank you very much.
    Obviously, I do not want to preempt my leadership in terms 
of what Secretary Hagel may say. But the opportunity for him to 
participate at the Shangri-La Dialogue will certainly afford us 
a platform to talk about our strategy for the Asia-Pacific 
through a speech, through interactions with senior leaders 
there.
    In addition to the speech, there will also be an 
opportunity to meet and interact with senior officials from 
countries that are sending their representatives to the 
dialogue. So it is part of establishing strong people-to-people 
relationships with counterparts and continue to develop the 
network that is so critically important to accomplishing things 
in the region.
    Senator Cardin. I saw a tentative agenda in which U.S. 
participation was pretty dominant, at least in the first 
section on our policies on Asia. It seems to me that that 
region is going to be looking at that conference to judge the 
sincerity of the United States rebalancing strategy as far as 
security issues in Asia.
    President Obama made it very clear in his speech--I believe 
it was in Australia--that sequestration would have no impact on 
the commitment we have to strengthen our security commitments 
in Asia.
    Secretary Yun, I am curious as to how the Chinese are 
responding to these developments. We need China's cooperation 
as it relates to North Korea, and there have been at least some 
positive signs that China shares our concern and wants to make 
sure that the Korean Peninsula is free of nuclear weapons.
    What impact does the realignment of United States military 
presence in Asia have on our relationship with China?
    Mr. Yun. Thank you, Mr. Chairman. Let me take your 
questions bit by bit because you have got a number of questions 
there.
    On North Korea, let me try to frame it a little bit. As you 
know, Secretary Kerry was out there only 2 weeks ago. I 
accompanied Secretary Kerry in his stops both in Beijing, in 
Seoul, and Tokyo. And I would say, you know, of course, in 
Tokyo and Seoul, we conveyed very strongly to our alliance 
partners what our side has done on security defense, military 
side, as well as commitment that they will be defended. That 
includes extended deterrence.
    With China, the discussions were long and deep, Chinese 
side, and this was coming from all of their leadership. 
Secretary Kerry had met with President Xi Jinping, Premier Li 
Keqiang, as well as State Councillor Yang Jiechi and Foreign 
Minister Wang. And their point was that they are prepared to 
engage us in really unprecedented ways in terms of depth and 
breadth of discussions because they too are committed to 
denuclearization. And as a start, this week we have had the 
chairman of the six-party talks, Wu Dawei, in town, and of 
course, we have Chairman Dempsey in Beijing, as well as Deputy 
Secretary Bill Burns in Beijing.
    So, Mr. Chairman, in answer to your question, on our side, 
on the diplomatic side, we have got a series of engagements 
that are lined up, and this will be the beginning, I believe, 
of very in-depth discussion with the Chinese side.
    Regarding your second part of your question on how do 
Chinese feel about our renewed focus on Asia; I think there is 
serious concern on the Chinese side whether this is aimed at 
them. And our response has been, no, it is not aimed at them. 
It is because we perceive our interests, economic interests, 
our global interests as being in Asia, which is why we are 
going to expend resources.
    In regards to resources, Mr. Chairman, on the diplomatic 
side, you will have noticed the fiscal year 2014 budget which 
includes, both on the diplomatic side, as well as the foreign 
assistance side, requests for an increase of, I think, about 7 
percent or so, which is kind of more than what other bureaus 
are doing. So I would like to put in a plug for that, sir.
    Senator Cardin. Thank you.
    There have been widely reported episodes of attempted cyber 
attacks against the United States. The origin of some of those 
attacks appear to be China, at least it has been reported that 
way. Now we have some form of an agreement of cooperation that 
was entered into on April 13. We all agree that is a positive 
sign. But is this really sincere or is this an effort being 
made to perhaps distract us and to perhaps for us to be less on 
guard? The vulnerability to cyber attack is real, what role 
does the Rebalance to Asia play as far as protecting America 
against cyber attacks?
    Mr. Yun. First, Mr. Chairman, I will talk a little bit and 
then I will turn it over to my colleague, Mr. Helvey, too.
    Again, in the same trip, I would say Secretary Kerry had a 
lengthy, lengthy conversation on cyber issues with the Chinese 
leadership. Really, there are two dimensions of cyber issues. 
And of course, China and the United States are most significant 
players in cyberspace, and it is very important for us to have 
a deeper understanding together with us.
    And one part of that issue is what I would call business 
and commercial issues where there have been thefts of business 
secrets, IP, intellectual property, being violated, and I think 
U.S. business has suffered quite a bit at this. And of course, 
there is another element which is the government involvement, 
state involvement in cyber theft.
    And so based on these two issues, we have reached an 
agreement with the Chinese that we will begin a working group 
that will report to what we call the SSD channel, that is the 
Strategic and Security Dialogue. And so we will be having a 
working group meeting with the Chinese very soon on this. I 
expect this will happen probably before the big dialogues take 
place in July.
    So let me see if David has something to add.
    Senator Cardin. I would appreciate it if you could also 
just tell us how sincere you believe the Chinese would be. I 
assume there are the two baskets of what you are talking about. 
A lot more problems can be caused in cyber, including actual 
attacks. But you are looking at the commercial theft issues, as 
well as some security issues. How detailed have we gotten? And 
how much of a commitment is there?
    Mr. Yun. Mr. Chairman, these are commitments to begin 
discussions by forming a working group. So I think it will be 
premature to make any comment on how detailed their commitment 
is, how sincere it is. So, Mr. Chairman, maybe after the first 
meeting, we can report back to you for a better answer to your 
questions on those.
    Senator Cardin. Secretary Helvey, did you want to add 
anything?
    Mr. Helvey. Yes, sir, just very briefly.
    Within the Department of Defense, we are working to enhance 
awareness of a variety of different types of cyber threats. We 
are also developing cyber dialogues as part of our bilateral 
discussions with our allies and partners around the region, 
again to enhance awareness among others of threats and also 
best practices, things like cyber hygiene to reduce the risk 
that you could be targeted or, if you are targeted, to limit 
the damage that could happen from that.
    With China, obviously, we are supporting the State 
Department in an interagency approach to engage the Chinese. We 
are very optimistic about the beginning of this cyber working 
group under the Strategic Security Dialogue. This is an 
important topic for discussion between the two sides, and we 
very much look forward to participating.
    Senator Cardin. I would just caution. There are cyber 
criminals that you point out are trying to steal--cyber theft. 
And there are cyber soldiers out there trying to harm or to get 
a security advantage over the United States. Both we believe 
are concerns from China. So I hope that we are going into this 
with our eyes fully open and recognizing that there are very 
serious issues here. Dialogue is always helpful. I am for that. 
But I hope that we are not going to compromise on our 
aggressive action to protect this country against cyber 
mischief.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Secretary Helvey, I wanted to ask you about NATO. What role 
do you see for NATO in the Rebalance to Asia? We have worked, 
obviously, together with NATO in Afghanistan and in other 
places. Is there a role for NATO potentially? Are we exploring 
that? What is your view or what is the administration's view 
with regards to how we could work with NATO and those assets to 
help with the military component of our rebalance and pivot?
    Mr. Helvey. Well, Senator Rubio, I would say that we have 
had some very initial discussions with NATO partners about the 
Asia-Pacific, but we do not have--there is very little role, I 
think, that has been defined to date about how NATO can play in 
the Asia-Pacific region--NATO as an institution.
    We have had some discussions with our European partners 
outside of the context of NATO where we find that we have 
shared values and principles as we look toward the Asia-
Pacific, and we are identifying areas where we can work 
together to either engage in China or to cooperate with other 
countries in the Asia-Pacific region to support common goals.
    Senator Rubio. One more question, this one with regards to 
China's military. Obviously, we are aware that in this country 
we have civilian control over the military. Obviously, the 
commander in chief is a civilian.
    How would you describe or what is our understanding of the 
civilian control over military decisions that are made? And in 
particular, I am curious whether it is the military buildup or 
military decisions in China are the result of military orders 
that are separate from civilian leadership. Are they 
integrated? What is our understanding of that chain of command 
within the Chinese military structure?
    Mr. Helvey. Well, sir, the Chinese military is an 
institution of the Chinese Communist Party. The General 
Secretary of the Chinese Communist Party, also the President of 
China, Xi Jinping, is the Chairman of the Central Military 
Commission. And so the principle of civilian control of the 
military is embodied in that one individual who presides over 
the Central Military Commission.
    In terms of the military buildup in China, military 
modernization is something that has been going on for decades. 
It is something that I think has enjoyed a great deal of 
support among both military and civilian leaders in China. I do 
not view it as being it is just something that the military is 
doing. Having a stronger military is something that has been a 
key part of China's modernization across the board.
    Senator Rubio. I understand the structure of the chain of 
command. I guess what I am wondering is are there indications 
that we have of any kind that the military officials in China 
act with a certain level of independence from civilian--for 
example, do they make their own decisions irrespective of what 
some of the civilian priorities might be? Your answer is that 
it is largely confined to the existing structures--our view 
that they pretty much stay within those confines?
    Mr. Helvey. We have seen evidence and cases in the past 
where there might be frictions or perhaps miscues between the 
military authorities and the civilian authorities in China. 
This is something that Xi Jinping's predecessor, Hu Jintao, and 
Xi Jinping himself have sought to strengthen, to try to avoid 
those types of miscues and to improve coordination across the 
bureaucracy.
    Senator Rubio. And I do not expect you to comment on this 
particularly because we just do not know a lot of this. But I 
will tell you the context in which I raise it primarily is with 
these territorial disputes that continue to arise. And the 
question that I often have is, is that a priority of the 
civilian government that they want to push and create some of 
these conflicts, or is it an emboldened military leadership 
that wants to stretch out and feel its--kind of spread its 
wings a little bit and show what it is capable of doing? And I 
just do not know the answer to that, but it is something we 
want to watch.
    Secretary Yun, I wanted to ask you about some comments 
Secretary Kerry made about the military rebalance. This is a 
quote. ``I am not convinced that increased military ramp-up is 
critical yet. You know, the Chinese take a look at that and 
say, what is the United States doing? They are trying to circle 
us. What is going on? And so, you know, every action has its 
reaction. I think we have to be thoughtful about, you know, 
some sort of how we go forward.''
    And then in a press conference in China on the 13th of 
April, he said the following statement. ``If the threat 
disappears--i.e., North Korea denuclearizes--the same 
imperative does not exist at that point in time for us to have 
that kind of robust, forward-leaning posture of defense.''
    My question is, how do those comments line up with what I 
think has been a pretty clear indication, I hope, from the 
administration that, in fact, one of the ways we intend to have 
influence in the region is to be able to live up to our 
security obligations to our allies because if you put yourself 
in the position of some of our allies in the region and they 
see the Secretary of State saying these sorts of things, I 
think it raises some concerns about whether our military 
commitments are there.
    So my question is--obviously, it is a better question for 
me to ask of Secretary Kerry the next time we have him before 
the full committee. But what is your take on how you reconcile 
these comments with what I thought was a pretty clear 
indication that we needed to have a more robust military 
presence in the region, not just 
vis-a-vis what is happening with North Korea, but in general, 
to assure our allies that they do not have to go on a buying 
and spending spree on their military hardware because we are 
going to live up to our security commitments?
    Mr. Yun. Thank you, Senator Rubio.
    I think what we are hearing from the region is that there 
has to be a balance between military presence, as well as 
nonmilitary presence, and this is what I also try to emphasize 
in my remarks. That is, U.S. engagement in the Asia-Pacific 
cannot be only military, that it has to have economic content, 
it has to have content such as climate change, education, all 
those. And I believe that was the central point of Secretary 
Kerry's remarks you just quoted.
    On the second issue----
    Senator Rubio. And I am sorry to interrupt. I understand 
what you are saying. I agree with what you are talking about. 
We do not just want to be a military power. We want to be an 
economic and diplomatic one and have influence in the region.
    But his comments--and it is not fair to you, I imagine. So 
I just want to say this for the record. His comments did not 
talk about a balance. His comments talked about if the United 
States builds up militarily, there is going to be a 
counterreaction from China, and he also goes on to say if North 
Korea denuclearizes, then maybe we do not need as much of a 
robust military presence in the region. My only point--and I do 
not expect you to answer for him. I do not think that is fair.
    But my only point is I think these comments are concerning 
to our allies in the region who--on the one hand, we are saying 
do not worry, we are serious about our security commitments, 
and on the other hand, they are hearing but those security 
commitments are going to be balanced against our concern that 
China may not like it.
    So I am sorry to interrupt you but I wanted to put that on 
the record. Thank you.
    Mr. Yun. If I may, regarding the second comment on North 
Korea specific, again I think his point was that the additional 
assets we put out there, including the THAAD in Guam, as well 
as other missile defense, was specifically aimed because North 
Korean capability had increased, and if there were no longer 
the threat, then it could be adjusted. Again, I do not think 
there was anything that was misleading about that, sir.
    Senator Rubio. I apologize. I am not claiming that the 
Secretary is misleading us. On the contrary, I am concerned he 
was actually being brutally honest about the administration's 
position with regards to the region. And I hope that is not its 
position because our allies in the region want to make sure 
that not only are we saying these things, but we are actually 
in a position to do something about the security commitments.
    My last point for the record. I want to be clear. I 
actually believe the region would be more stable and more 
peaceful if the United States has the capability and the 
commitment to live up to its security obligations.
    But thank you for your service and thank you for being 
here.
    Senator Cardin. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I want to thank the witnesses for their testimony.
    Let me pick up a little bit where Senator Rubio left off in 
terms of the military buildup in China. Can you put some 
numbers on that, dollars spent over the last 10 years, percent 
of GDP?
    Mr. Helvey. I can get you some specifics in terms of the 
dollar figures on an annual basis for the past decade, sir. But 
I mean, in very broad terms, China's defense budget has 
increased by over 10 percent for the past two decades. I think 
the most recent budget increase from this past March was again 
over 10 percent to something like $120 billion.
    The concern that we have is the pace of this military 
expenditure, as well as the scope of the investments. China is 
investing in a comprehensive modernization of its military, and 
this is something that we have documented annually in our 
reports to Congress on military and security developments 
involving the Peoples Republic of China under the National 
Defense Authorization Act for fiscal year 2000.
    Senator Johnson. So if they are spending $120 billion per 
year, can you break that out for me in terms of personnel 
versus procurement, weapons systems, ships?
    Mr. Helvey. If I can get that for you in the response for 
the record, sir, I would appreciate that.

    [Editor's note.--The information requested for the record 
by Senator Johnson was not supplied from the Defense Department 
by the time this hearing went to press.]

    Mr. Helvey. The challenge is that there is not a whole lot 
of transparency in terms of China's military spending. I mean, 
they have been able to provide to the United Nations some very 
gross breakdowns in terms of personnel accounts, operations, 
and equipment. But beneath that level, it is very difficult to 
establish exactly what the budget--which line items for the 
budget----
    Senator Johnson. What area, just in general, of buildup is 
of greatest concern to the United States? Is it their naval 
buildup?
    Mr. Helvey. Sir, I would say that there is a number of 
different capabilities that we are paying very careful 
attention to. China's investments in its nuclear and nuclear 
capable forces is something that we are watching very 
carefully, investments in its undersea warfare capabilities, 
including submarines, both nuclear-powered and conventionally 
diesel-powered submarines, as well as its long-range 
conventional precision strike weapons systems, both ballistic 
and cruise missiles. These are part and parcel of what we in 
the Department of Defense refer to as an antiaccess and area 
denial type of strategy which, if put into place and executed, 
could be intended to limit the ability of the United States or 
other militaries from operating in the western Pacific.
    Senator Johnson. So when we go about our rebalancing, then 
are we very specifically trying to counter those buildups? I 
mean, is our rebalancing directly related to their buildup?
    Mr. Helvey. I think the best way to characterize it, sir, 
is the rebalance toward the Asia-Pacific is not about China. It 
is about what we are doing with our allies and partners in the 
region, and China can potentially be a partner in this regard. 
It is what we are doing to support and sustain the regional 
political and economic system that has persisted for the past 
six decades. In this respect, the success of the rebalance 
hinges on having a positive and productive relationship with 
China. So absolutely, the rebalance is not about China.
    What China does, though, of necessity does impact how we 
think about the region and how others think about the region as 
well.
    Senator Johnson. Talk a little bit about the areas where we 

actually cooperate where we have agreement with China versus 
the areas that will create stress in the relationship. Either 
witness can answer that one, or both. So we will start with the 
best area of cooperation.
    Mr. Yun. Sir, I would say we cooperate in a number of 
fields, and even I would count North Korea as one of them in 
which China has hosted the six-party talks for a long time.
    And another area we do cooperate is in the trade area. I 
mean, we have an enormous amount of trade and investment in 
each other's country. Certainly this amount of trade--there 
will be problems, but there has to be substantial cooperation 
in order for this to go on.
    I would also say in the education field. There are 
tremendous amounts of Chinese students in the United States, 
and there are now increasing amounts of American students in 
China.
    And then some further areas of cooperation we are looking 
at is economic development in Southeast Asia. We have an 
agricultural cooperation project with China on Timor-Leste.
    So I would not minimize our cooperation agenda with China, 
sir.
    Senator Johnson. Senator Cardin talked a little bit about 
cyber security issues that have come to light and been 
publicized. And by the way, I appreciate the fact the 
administration is highlighting that. I think information, 
sunlight is probably the best cure there.
    Can you speak a little bit in terms of what has transpired 
over the last 10 years in terms of just intellectual property 
and China's cooperation with us trying to protect United States 
intellectual property?
    Mr. Yun. This is a serious issue, IP issues, with China, 
and we have got a number of companies that have suffered from 
theft of IP from the Chinese side. They include some of our 
optical glass wear, as well as, of course, computer information 
technology. And this is a discussion that we have, as you know, 
under the strategic and economic dialogue, and we will continue 
to have these discussions. We have raised company-specific 
issues, as well as general issues, and this is something that 
is very serious. Again, Secretary Kerry raised it with all four 
leaders he met with.
    Senator Johnson. So as with cyber, we are talking about 
awareness, we are talking about dialogue, about a working 
group. Anything concrete occurring that you can report on? Are 
we proposing some not only carrots but sticks? And has there 
been any success in terms of actually enforcement of IP 
protection?
    Mr. Yun. I cannot cite any successes so far, but of course, 
the problem areas are huge. Let me study the issue and get back 
to you on how we have approached this issue, for example, in 
WTO being one of the multilateral rules, whether that has seen 
any results. But I have not seen any assessment of successes.
    Senator Johnson. Let me just conclude. I guess for the 
record, I look at China really as a 1.2 billion person 
opportunity for the United States. But until China, I think, 
starts enforcing things like IP and we really come to grips 
with the cyber security threat, it is going to be very 
difficult moving forward. So I want to fully cooperate with 
China, and I certainly want to encourage the administration to 
continue to highlight the problems and try and get some 
resolution of those issues. But, again, in case my questioning 
sounded a little more hostile, it is not. It is really looking 
toward how we can cooperate.
    Thank you.
    Senator Cardin. Well, clearly, intellectual property and 
cyber are security issues. There is no question about it. They 
are also economic issues, and we do intend to hold a hearing on 
the economic issues of the rebalance. So we will get into this 
again. We may also get into currency manipulation in China. We 
certainly will bring up the impact that TPP will have on the 
economics of that region. So there is a lot of matters that, 
Senator Johnson, you are raising that are critically important 
to the United States. And I just want to concur. We all want a 
very productive relationship, mutually beneficial relationship 
with China, but there are serious issues that need to be 
addressed.
    I want to ask you one or two more questions. Hopefully we 
can cover this pretty quickly.
    Traditionally Australia and New Zealand have been very 
active with the Pacific island countries. China, in the last 
decade, has given a lot more attention to the Pacific islands. 
As we rebalance in Asia, how does China's participation in the 
region, particularly with the Pacific island countries, affect 
policies that we might wish to pursue?
    Mr. Yun. Thank you, Mr. Chairman.
    I would say there are a number of intersections on how we 
work together with China on the Pacific islands and ocean 
space.
    Certainly one of them is fisheries, and these are very 
important resources especially for islands like Samoa, Palau, 
the Marshall Islands. So we have our own approach, obviously. 
We have a compact with some of these countries that protect our 
fishing rights. And so that is one area that we are working 
very closely with the Pacific islands.
    Second is our participation in the Pacific Islands Forum, 
PIF. And that is where all the leaders of the Pacific islands, 
as well as Australia and New Zealand, and we participate. And 
this is becoming a very important forum, how the United States 
with enormous equities in the Pacific islands deal with these 
islands, as well as outside powers principally, as you 
mentioned, China. I mean, there is an issue. Are we expending 
the right amount of resources to help development, to help 
overcome some of the problems in the Pacific islands? Because 
in the end, of course, China has really upped their game in the 
Pacific islands. Are we competing effectively? And that is a 
question we are trying to step up. Last year, Secretary Clinton 
went to participate in the Pacific islands. So it is very much 
in our mind, sir.
    Senator Cardin. Well, I think it should be priority, and I 
appreciate your saying that.
    Talking generally now on maritime security issues, I 
mentioned in my opening statement the fisheries agreement 
between Japan and Taiwan. I also mentioned the Brunei-Malaysia 
agreement on petroleum.
    Historically the United States has taken the position that 
maritime disputes need to be resolved peacefully through 
negotiation between the parties and with some orderly process. 
But these disputes are somewhat frozen in time. They have been 
there for a long, long time. And they could very well mushroom 
at any time with an incident.
    Has the United States looked at using some form of 
cooperative agreements on resources as a model to make progress 
on some of the disputes that exist in that region?
    Mr. Yun. Thank you, sir.
    I wish they would remain frozen in time. The problem is 
they do not. As you can imagine, there are no resolutions. 
Nobody is ever going to give up their claim. So really, the 
question is, How do you manage it?
    One of the models of managing is through joint use, joint 
exploration, joint agreement. But, of course, in problem cases, 
each country wants joint use, joint exploitation to be under 
their sovereignty, and that is when it becomes a problem. If 
all countries were to shelve their sovereignty issues and have 
joint exploration, I think that would work out quite well. And 
there are a number of examples where they have done that. They 
include ones between Thailand and Malaysia and I think Thailand 
and Burma have entered into joint exploration. So there are 
some good examples, and we are trying to encourage them. But 
the problem has been in very deeply rooted ones. Each country, 
all the countries will not give up their sovereignty, sir.
    Senator Cardin. Thank you.
    Secretary Helvey, talking about sovereignty, the agreement 
to allow the Republic of Korea to take wartime command back to 
the country. Does that have any significant impact on the 
United States security commitments on the Korean Peninsula?
    Mr. Helvey. No, sir, it does not. In fact, the plan that we 
have in place, as we work toward that OPCON transition, 
Strategic Alliance 2015, is a mechanism by which we are 
actually strengthening our alliance as we are working to 
prepare and meet the joint certification requirements to enable 
the ROK to take on this responsibility. So far from diminishing 
our commitment. It is actually strengthening it, sir.
    Senator Cardin. So that does not change the troop levels.
    Mr. Helvey. We are committed to maintaining the 28,500 
troop level, sir.
    Senator Cardin. Well, we thank both of you again for your 
testimony and for your service.
    We will now go to the second panel. I am pleased to 
introduce Dr. Janine Davidson who is a senior fellow at the 
Center for a New American Security and assistant professor in 
the School of Public Policy at George Mason University in 
Arlington, VA, where she teaches courses on national security 
policymaking, strategy and civil-military relations, and public 
policy.
    Dr. Davidson began her career in the United States Air 
Force where she was an aircraft commander, senior pilot for a 
C-130 and C-17 cargo aircraft. She flew combat support and 
humanitarian air mobility missions in Asia, Europe, in the 
Middle East and was an instructor pilot at the U.S. Air Force 
Academy. Welcome. It is a pleasure to have you here and thank 
you for your service.
    You are joined by Dr. Michael Jonathan Green, who is the 
senior vice president for Asia and Japan Chair at the Center 
for Strategic and International Studies, an associate professor 
at the Edmund A. Walsh School of Foreign Service at Georgetown 
University. Dr. Green served on the staff of the National 
Security Council from 2001 to 2005, first as the Director for 
Asian Affairs and then as a Special Assistant to the President 
for National Security Affairs and as Senior Director for Asia.
    It is a pleasure to have both of you before our committee. 
We will start with Dr. Davidson.

 STATEMENT OF DR. JANINE DAVIDSON, SENIOR FELLOW, CENTER FOR A 
             NEW AMERICAN SECURITY, WASHINGTON, DC

    Dr. Davidson. Thank you, Chairman Cardin and members of the 
committee, for the opportunity to speak with you today on the 
important topic of the U.S. rebalance in the Asia-Pacific.
    Although most of the significant policy moves here are 
economic or diplomatic, they are of course enabled by a stable 
and peaceful environment. So my comments today will focus on 
the role of the U.S. military in the rebalance.
    Now, my perspective on this topic has been shaped not only 
by my most recent experience serving as the Deputy Assistant 
Secretary of Defense for Plans where I had the responsibility 
for U.S. global defense posture policy, but also by my 
experiences at the beginning of my career when I served as an 
Air Force officer and 
C-130 pilot stationed at Yokota Air Base, Japan. Flying 
missions throughout the region, including training exercises in 
Korea and Southeast Asia, the evacuation of the Philippines 
following the eruption of Mount Pinatubo, and also in support 
of POW/MIA repatriation initiatives in Vietnam gave me a front-
row view of how our engagement in the region builds 
relationships and promotes peace.
    So in the interest of time, let me just cut to my bottom 
line up front. America's forward-postured and actively engaged 
U.S. military has been and will continue to be a smart 
investment for the American people.
    Now, let me just provide three reasons why I believe this 
is true and how it works.
    First, preventing conflict is much better than fighting 
wars. Our military posture in the region, most notably our 
bases in Japan and Korea and previously the Philippines, has 
underwritten decades of peace and enabled the region's 
extraordinary economic successes of the past 20 years. Thus, 
the first imperative must be to sustain our core deterrence 
posture and continue to assure our Northeast Asian allies 
against the existential threat posed by a nuclear-armed North 
Korea. As tensions rise on the Korean Peninsula or in the South 
China Sea, the reaffirmation of the security guarantee can 
prevent a destabilizing arms race among nervous countries in 
the region.
    Second, remaining forward-postured is a more effective way 
to promote stability compared to projecting power from our 
bases at home. During times of rising tensions or crises, 
visibly sending forces from the continental United States can 
not only take too much time to be effective, but may also be 
seen as provocative or escalatory, ironically increasing rather 
than calming tensions.
    Third, remaining forward is an efficient way to promote 
stability. Home-porting ships, for example, closer to their 
areas of operation saves 3 to 4 weeks in transit times and 
requires one-third fewer ships in the inventory, thus saving 
billions of dollars in acquisition, operations, and maintenance 
costs. Thus, when budgets are tight, we can actually get more 
for less by positioning a larger percentage of a smaller force 
forward, especially in places like Japan or Korea where the 
governments share the costs to build and maintain our 
facilities.
    Going forward, however, we must recognize that this is not 
the same Asia in which we based our forces at the end of World 
War II. Although North Korea continues to menace our allies and 
now even our homeland, necessitating our sustained military 
commitment in the northeast, vibrant, growing economies across 
Southeast Asia are enhancing their own militaries and learning 
to work together and with us to promote security and stability 
across the rest of the region. Our presence, policy, and 
military posture must adjust to these changing dynamics.
    New modes of military-to-military engagement and new 
partnerships will promote stability and burden-sharing 
throughout the region. The U.S.-hosted RIMPAC, for example, 
which is the world's largest multilateral maritime exercise, 
allows militaries from over 20 countries, including China in 
2014, to develop shared norms for maritime security. So in 
addition to promoting interoperability and building partner 
capacity where needed, such military-to-military engagement 
enhances personal relationships and develops modes of 
communication that can prevent mishaps and unintended 
escalation in future crises.
    Over time, as partner militaries improve their own 
capability and capacity, the possibility of burden sharing 
increases, ultimately preserving U.S. resources as local actors 
are better able to respond to regional security challenges and 
to contribute to other multilateral operations in and out of 
the region.
    So the Obama administration's strategic approach to the 
military in Asia is wise. They are focused on remaining 
operationally resilient vis-a-vis core threats in Northeast 
Asia, while also becoming more geographically distributed to 
address the changing dynamics in the southeast. New moves in 
Australia, Singapore, and elsewhere in the region reflect this 
vision while also remaining respectful of the domestic 
political issues in these countries.
    So in closing, I believe that America must remain engaged 
in this vibrant and growing region in ways that will promote 
the multilateral cooperation, interoperability, and burden-
sharing that will underwrite the next 70 years of growth and 
security. I hope Members of Congress will continue to protect 
this investment and to also make the case to the American 
people for why our military presence in the Asia-Pacific 
remains vital for America's national interests.
    Thank you for having me here today and I look forward to 
your questions.
    [The prepared statement of Dr. Davidson follows:]

                 Prepared Statement of Janine Davidson

    Thank you, Chairman Cardin and members of the committee. I am 
honored to testify today on the important topic of the U.S. 
``rebalance'' in the Asia-Pacific. I began my career as an Air Force 
officer and C-130 pilot stationed in Yokota Air Base, Japan (1990-1993) 
where I flew missions throughout the region, including multiple 
bilateral training exercises in Korea and Malaysia, the evacuation of 
the Philippines following the eruption of Mt. Pinatubo, and in support 
of our POW/MIA repatriation initiatives in Vietnam. Most recently, I 
served for 3 years as the Deputy Assistant Secretary of Defense for 
plans, where I had the responsibility for U.S. global defense posture 
policy. As such, I helped develop options for the military's part in 
the rebalance and was also the cochair for the U.S.-Australia Working 
Group. Having left government over a year ago, my comments today 
reflect my personal views, not those of the Department of Defense 
(DOD), the U.S. Government, or the Center for a New American Security.
    Although most of the significant policy moves for America's 
``rebalance'' strategy are rightly focused on economic and diplomatic 
engagement, such activities are enabled by a stable and secure region. 
Thus, my comments today will address the importance of the Asia-Pacific 
to U.S. interests as a whole; how a new U.S. role in the region can 
better address emerging challenges and opportunities; and more 
specifically, how a forward postured and engaged U.S. military can 
support this strategy.
The United States in the Region
    For 70 years America's sustained forward presence in Asia has been 
a stabilizing force. As the foundation for our key alliances, our 
military posture in the region has underwritten decades of peace and 
enabled the region's extraordinary economic successes of the last 20 
years. Sustained American military leadership in Asia, through which 
flows 40 percent percent of global trade \1\ and which represents 
nearly a quarter of global GDP,\2\ has paid dividends in peace and 
prosperity for America and the world. In short, America's military 
posture in Asia has been a smart investment for the United States.
    Looking to the future, the economic importance of a rising Asia is 
clear. Maintaining peace and stability in this region is thus vital to 
America's continued prosperity. But this is not the same Asia in which 
we based our forces at the end of WWII. Although North Korea continues 
to menace our allies--and now our homeland--necessitating our sustained 
military commitment in the Northeast, vibrant growing economies across 
Southeast Asia are enhancing their own militaries and learning to work 
together and with us to promote security and stability across the rest 
of the region. Our presence, policy, and military posture must adjust 
to these changing dynamics. America must remain engaged in this vibrant 
and growing region, but in ways that promote the multilateral 
cooperation, interoperability, and burden-sharing that will underwrite 
the next 70 years of growth and security.
Security Challenges Old and New
    For all the advances in the past few decades, the region still 
faces a number 
of challenges--some familiar, some emerging. North Korea is edging 
closer to deploying nuclear warheads deliverable by long-range 
ballistic missiles and has an untested young leader who may still be 
consolidating his grip on power. China, despite a small dip in its 
economic growth rate, remains a rising strategic competitor to the 
United States with expanding military capabilities and potentially 
destabilizing domestic problems. Regional maritime disputes abound in 
the Asia-Pacific and while they don't present challenges as fundamental 
as those of China and North Korea, the risk of miscalculation among 
claimants increases the chances of sparking conflict, applying pressure 
on the United States to intervene in defense of its treaty allies. Asia 
is replete with nontraditional security threats as well. Given the 
importance of Asian shipping lanes, piracy is an enduring challenge as 
is the potential for international terrorist plots emanating from the 
region. Global climate change threatens to exacerbate these challenges 
over the coming decades through more severe natural disasters that will 
no doubt require military responses. Finally, well-documented offensive 
cyber activities in Asia further threaten stability.
    In light of these issues, there is a need for a new model of U.S. 
leadership in the region. Washington must take the steps necessary to 
secure American economic and security interests, assure allies and 
partners and promote multilateral cooperation and adherence to 
international law. However, although a U.S. presence is widely desired 
by our partners and allies in the Asia-Pacific, a heavy-handed approach 
could undermine U.S. interests and inadvertently reverse longstanding 
peace and stability in the region. Simultaneously, the United States 
should recognize that there is a trend developing of strengthening 
intra-Asian security relationships in Asia. Instead of trying to insert 
itself into this activity, the United States should let it develop 
organically. While U.S. military planners must continue to plan for 
worst-case contingencies, these plans represent only a part of a larger 
strategy that integrates ``partners''--not ``host-nations''--and works 
in a measured, cooperative fashion to promote sustained peace and 
stability in the Asia-Pacific.
The Value and the Logic of Forward Stationed American Forces
    As Senator McCain made clear in his recent speech at the Center for 
a New American Security, America's current economic challenges and the 
debilitating gridlock in Congress, have led many in Washington to call 
for retrenchment. But the idea that disengaging from the world would be 
in America's best interest is misguided. American forward military 
presence remains a wise investment in a globally interconnected world, 
especially in this fiscally constrained environment, for the following 
reasons.\3\
    First, as our decade-long experience in Iraq and Afghanistan should 
suggest, preventing wars is undoubtedly cheaper than fighting them. To 
the extent that America's presence in Asia can continue to deter 
enemies from launching attacks that kill innocent people and 
destabilize the global economy, we will save taxpayer dollars and 
precious lives.
    Second, our presence in Asia assures allies that there is no need 
for them to overmilitarize or, worse, to develop destabilizing nuclear 
arsenals. If the United States were to retrench from the region and 
create doubts about its commitment to the defense of South Korea or 
Japan, both of those countries, and maybe some others in the region, 
would be pressured by their publics to develop nuclear weapons. 
Although the immediate motivation would be protection against an 
increasingly belligerent North Korea, a nuclear arms buildup in 
Northeast Asia would be perceived as a threat to other countries and 
have destabilizing spillover effects across the region. Given the 
potential ripple effects of instability beyond the Asian region, this 
is not a ``new normal'' anyone in the world should want to see emerge 
across this region.\4\
    Third, forward stationing military assets, especially naval ones, 
is more efficient than rotating military forces from bases at home on 
an as-needed basis. In addition to host-nation financial support, port 
facilities in allied nations provide a forward location for periodic 
maintenance, saving resources in transit time. Thus, as budgets shrink, 
having a larger percentage of a smaller force forward, is a prudent 
economic choice.
    Fourth, forward stationed forces are better positioned to manage 
tensions and to facilitate collective responses to crises. Deploying 
forces all the way from the United States in times of crisis not only 
takes more time than might be available; it can also be seen as 
provocative and escalatory. In contrast, having forces in theater 
conducting regular bilateral and multilateral exercises and other 
training activities, allows for sustained engagement with ally and 
partner militaries. Such engagement promotes interoperability, builds 
capacity where needed, and, importantly, develops personal 
relationships among military professionals that can pay dividends 
during crises. Over time, as partner militaries improve their own 
capability and capacity, the possibility of burden-sharing increases, 
ultimately preserving U.S. resources as regional actors are better able 
to respond to regional security challenges and to contribute to other 
multilateral operations.
    Finally, these steady state activities with our partners and allies 
promote burden-sharing in and out of the region in a self-reinforcing 
fashion. For example, our antipiracy efforts in the Horn of Africa are 
fully multilateral, with 7 of the 27 participating nations coming from 
Asia. These real-world multilateral operations, like the myriad 
exercises conducted with partners in Asian waters, further develop 
rules of engagement, interoperability, and shared values for 
professional militaries that respect human rights, the rule of law, and 
civilian control. Such lessons and common operating frameworks can be 
brought to bear in places like the Straits of Malacca or the South 
China Sea, where multilateral cooperation can similarly address piracy 
and trafficking issues or mitigate potential territorial disputes and 
freedom of navigation issues.
The ``Rebalance'' and the American Military
    The Obama administration's emphasis on the importance of Asia is a 
reflection of the rising economic role the region plays and the 
interdependence of our economies. Thus, the economic and diplomatic 
engagement is the core of the rebalance policy. That said, the military 
has an important supporting role in America's overall Asia-Pacific 
engagement, as peace and stability in the region enables economic 
prosperity and free flows of trade.
    The Pentagon's strategic approach here is wise. Our military 
posture in Asia is meant to be ``operationally resilient'' vis-a-vis 
core threats, while also becoming more ``geographically distributed'' 
to address the changing dynamics in Southeast Asia. Recognizing that 
each of the emerging powers in the region has its own interests and 
domestic political considerations, the Obama team also asserted that 
U.S. military posture should be ``politically sustainable.'' Thus, 
while the Pentagon had a vision for the long-term changes they might 
want to see in the region, their adage was to ``go slow and consult'' 
with regional partners before making dramatic changes that might have 
negative diplomatic repercussions. Thus, the term ``rebalance'' is more 
appropriate than ``pivot,'' as the former connotes a more gradual 
process and one that makes adjustments in approach and activities, 
rather than a simple and abrupt repositioning of forces. Moreover the 
changes are to occur within the region as more emphasis is placed on 
activities and engagement in Southeast Asia (while holding strong in 
the Northeast), as well as across regions, as more American resources 
are made available following the large-scale wars in Iraq and 
Afghanistan.
    Our military posture in the Asia-Pacific should adjust to the 
changing dynamics and capabilities of emerging partners, while also 
taking care not to abandon longstanding arrangements that are still 
working or are still needed. Thus, the first imperative must be to 
sustain our core deterrence posture and continue to assure our 
Northeast Asian allies against the existential threat posed by a 
nuclear-armed North Korea. Our longstanding posture in this region, 
including nearly 30,000 troops in South Korea and an additional 50,000 
in mainland Japan and Okinawa, are the key to remaining ready to 
respond to emerging crises. Our bases in Guam, which will absorb 
approximately 5,000 marines from Okinawa, also provide airfields and 
naval ports for a more dispersed footprint and thus promote a more 
operationally resilient posture.
    Although we need not--and should not--build large new American 
bases across the region, we should also be cautious as we make changes 
to our legacy basing arrangements. As our experience in the Philippines 
demonstrates, executing a precipitous departure can shock relationships 
and limit future options. That said, where ally countries host our 
military forces, we must remain conscious of the fact that these are 
not our territories. In places like Japan and Korea, decades of 
political change and economic growth have altered significantly the 
local environments in which our forces reside. Our posture must account 
for such shifts, taking an evolutionary, not revolutionary, approach. 
As the recent adjustments in Okinawa and Korea demonstrate, it is 
possible to make changes to our traditional posture model that meet our 
operational requirements while also respecting our allies' political 
realities and the need for change.\5\
    Elsewhere in the region, where a robust U.S. footprint would not be 
desirable or practicable, new modes of military engagement by the 
United States should be designed to enhance regional stability. 
Changing dynamics and challenges in the ASEAN region present 
opportunities for constructive U.S. military engagement. ASEAN 
countries are thickening bilateral ties among each other across the 
region and promoting cooperative approaches to shared challenges. In 
contrast to our partners in Europe who are decreasing defense spending, 
many Asian countries are investing in new defense capabilities and 
building their military capacity.\6\ The U.S. role here should be to 
promote such regional engagement by hosting some of the larger 
multilateral military exercises, such as RIMPAC7 (Rim of the Pacific) 
and participating in activities hosted by others when invited, such as 
ADMM, (ASEAN Defense Ministers' Meeting) or PITCH BLACK (multilateral 
air forces exercise hosted by Australia). The fact is, the United 
States has convening authority in the region such that if our military 
is due to participate, others will sign on. Thus, just by showing up, 
the U.S. presence can act as a powerful catalyst for multilateral 
cooperation with very little investment.
    As such activity expands, however, it is important that the United 
States along with its allies and other regional militaries ensure that 
China also has the opportunity to participate. Regular participation in 
military exercises builds confidence among participants, dismisses 
Chinese misperceptions about ``encirclement'' or ``containment,'' and 
promotes shared norms for multilateral cooperation. Additionally, 
should tensions rise over territorial disputes or other issues, the 
military-to-military relationships forged through such engagement can 
provide a valuable avenue for communication that can avoid 
miscalculations or unintended escalation.
    Being forward postured is the downpayment that enables all of this 
engagement. The enhanced rotational Marine Corps presence in Australia 
as well as the four littoral combat ships to be stationed in Singapore 
are steps in the right direction. The agreement with Australia reflects 
the shared desire to enhance interoperability on the very important 
amphibious role for which the U.S. Marine Corps is so proficient. The 
plan to start small with 250 marines and grow eventually to 2,500, 
reflects the flexible ``go slow and consult'' approach. The engagement 
should be assessed each year, lessons should be incorporated, and each 
country should remain flexible along the way to the larger partnership. 
Meanwhile, the LCS, is the right platform for the maritime challenges 
in the region. U.S. forces' participation in the region's multilateral 
and bilateral exercises on humanitarian assistance and disaster relief 
(HA/DR) not only improves local capability and capacity to respond 
locally to such crises, but also enhances the general interoperability 
among all of the militaries participating that will pay dividends in 
cooperative military responses to future crises of any sort.
    These new models of engagement can be replicated elsewhere in the 
region. Although the United States traditionally thinks of Southeast 
Asia as a maritime domain, for many of the countries in the region 
their armies are the dominant military branch. Thus, we might consider 
more army-to-army engagements and partner capacity-building efforts 
focused on land forces as a complement to our many maritime efforts.
    Going forward, discussions with the Philippines and Vietnam are 
also promising. From a U.S. perspective, operating agreements in new 
places enhance our own operational resiliency while military-to-
military engagement promotes stability. We must, however, remain savvy 
about the rising tensions in the region. As we promote stronger 
bilateral ties through military engagement, we must find a balance 
between assuring our allies and accidentally emboldening them to take 
more provocative actions that might enflame tensions. Our allies should 
not mistake our enhanced engagement throughout the region as an effort 
to encircle China or as carte blanche to fan the flames over 
territorial disputes. In short, we should affirm our commitment to 
defend our allies against attack; while also making it clear that we do 
not condone military aggression.
The Immediate Challenge
    With Asian defense budgets rising and weapons proliferating, the 
United States must continue to serve as a moderating influence in the 
Asia-Pacific region, promoting shared values for the rule of law, human 
rights, and good governance. The low-cost, high-payoff initiatives 
outlined here should be protected as we allocate our stressed defense 
dollars. As Deputy Secretary of Defense, Ash Carter, asserted, the 
Pentagon is ``turning the great ingenuity of our Department to the 
Asia-Pacific region, not only in hardware and technical investments, 
but intellectually--in language and culture skills, regional and 
strategy affairs.'' \8\ Congress should support such investments that 
underwrite our rebalance in the Asia-Pacific.
    But for countries in Asia, the uncertainties created by political 
gridlock in Washington can have a destabilizing effect. Strategic 
competitors like China are emboldened by American political dysfunction 
and officials and strategists in allied and partner countries fear that 
the United States will not remain committed to the region, despite 
rhetoric to the contrary. It is imperative that the United States sends 
strong signals to allies like Japan and South Korea that we are 
adapting our security relationships to the changing strategic 
environments. Our partners must believe that they can count on 
continued U.S. presence and leadership. Lack of faith in U.S. 
commitment will lead to further hedging by our partners and allies; and 
such uncertainty will complicate an already complex web of security 
relations in the region with the greatest long-term economic importance 
to the United States. Congress has a vital role to play, not only in 
budgeting and oversight, but also in affirming our commitment to our 
allies and in speaking directly to the American people about the 
importance of Asia and our national interests there.
    In closing, let me express my gratitude to the committee for its 
attention to this important issue and for providing me with the 
opportunity to speak with you today. Thank you.

----------------
End Notes

    \1\ ``Malacca Strait is Strategic Chokepoint,'' Reuters, 4 March 
2010; http://in.reuters.com/article/2010/03/04/idINIndia-
46652220100304.
    \2\ World Trade Organization, Statistics Database: http://
stat.wto.org/CountryProfile/WSDB 
CountryPFReporter.aspx?Language=E.
    \3\ Michele Flournoy and Janine Davidson, ``Obama's New Global 
Posture: The Logic of U.S. Foreign Deployments,'' Foreign Affairs, Vol. 
91, No. 4, July/August, 2012, pp. 53-63.
    \4\ ``Rising Voices in S. Korea, Japan Advocate Nuclear Weapons,'' 
Voice of America, February 12, 2013; http://www.voanews.com/content/
rising-voices-in-south-korea-japan-advocate-nuclear-weapons/
1604309.html.
    \5\ In Okinawa, the overall number of marines will be reduced from 
approximately 18,000 to 10,000 by moving some to Guam, Hawaii and 
elsewhere in the region. In Korea, U.S. military personnel are moving 
to less populated parts of the country to accommodate growth in more 
urban areas. Karen Parish, ``U.S., Japan, Agree on Okinawa Troop 
Relocation,'' Defense News, April 27, 2012; http://www.defense.gov/
News/NewsArticle.aspx?ID=116105; T.D. Flack, ``Yongsan Relocation Plan 
Moving Forward,'' Stars and Stripes, July 10, 2005, http://
www.stripes.com/news/yongsan-relocation-plan-moving-forward-1.35625.
    \6\ ``Military Spending in Southeast Asia,'' The Economist, March 
21, 2012; http://www. 
economist.com/node/21551056.
    \7\ ``PACOM Supports China Invite to RIMPAC 2014,'' Navy Times, 
September 19, 2012; 
http://www.navytimes.com/article/20120919/NEWS/209190323/PACOM-
supports-China-invite-RIMPAC-2014.
    \8\ ``The U.S. Strategic Rebalance to Asia: A Defense 
Perspective,'' Ash Carter, speech delivered Asia Society, New York 
City, August 1, 2012; http://www.defense.gov/Speeches/Speech.aspx? 
SpeechID=1715.

    Senator Cardin. Thank you very much for your testimony.
    Dr. Green.

 STATEMENT OF DR. MICHAEL J. GREEN, SENIOR VICE PRESIDENT FOR 
 ASIA AND JAPAN CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC

    Dr. Green. Chairman Cardin and members of the committee, 
thank you for inviting me to talk about the Rebalance to Asia.
    Today, virtually all of our allies and partners in the 
Asia-Pacific region want to increase security cooperation and 
engagement with the United States in large part because of the 
rise of China. But many of them trade more with China than they 
do with us, including Japan, Korea, Australia, three of our 
most important allies. And so none of them wants to be ever put 
in a position where they have to choose between Washington and 
Beijing.
    So therein lies the environment within which we need to 
strengthen our partnerships. We need to be ambitious, but we 
need to be subtle. We are not always good at subtle, but we are 
going to have to be.
    I agree with Dr. Davidson. I think the administration's 
rebalance is generally the right strategy. CSIS was asked by 
the Congress to do an independent assessment of the strategy, 
which I co-led with my colleague, David Berteau. We had some 
specific quibbles which are available in the report. But let me 
focus on five areas that concern me going forward about how we 
are working with allies and partners.
    First, Senator Rubio and Senator Johnson asked about the 
maritime disputes in the first island chain. One thing that 
concerns me is that we, in the United States or in the 
administration, do not have a clear consensus on what is behind 
these disputes. Some people argue that it is nationalism. 
Others argue it is resources.
    I think the underlying theme in these disputes along the 
first 
island chain in the East China Sea and the South China Sea is 
China's pursuit of what in the PLA has called the ``Near Sea'' 
doctrine, dominance over the waters near their coast, which is 
a logical thing for any rising power to do. But it puts this in 
a particular context.
    And frankly, we have not always been consistent in how we 
articulate our interests and our commitments. We do not have a 
position on these territorial claims, but we need to be crystal 
clear and consistent that we will oppose efforts at coercion 
against partners and allies.
    A second concern. If we are going to strengthen these 
partnerships and especially in a time of limited resources, we 
need to be much more agile and smart about how we do 
partnership capacity building. We ought to be doing a lot more 
building of equipment together, submarines, jets. We need to 
fix our broken foreign military sales, FMS, system so we can 
get things to allies and partners when they need them. And we 
need our Pacific Command and the Pentagon and the White House 
to be thinking through what capacity we want our partners to 
have and look for opportunities to advance that dialogue.
    The third issue. We need to do a better job networking our 
alliances. For three administrations, we have built trilateral 
partnerships: Japan-Korea-United States; Japan-United States-
Australia. They are more important than ever. Right now the 
Japan-Korea leg is a bit broken. We are not going to fix the 
historical issues between those two countries, but we need to 
be doing more to keep them both focused on common operating 
procedures, intelligence sharing, and the kind of things that 
add to everyone's security in the region.
    The fourth concern. Dr. Davidson touched on our realignment 
strategy. We found in our independent assessment that the idea 
of dispersing our forces is very logical. We face ballistic 
missile threats. Dispersal is one answer to that. We have more 
requirements for engagement across Southeast Asia and the 
southeastern part of the island chain. Dispersal is necessary 
for that. And we want our alliances with Japan and Korea to be 
sustainable, and so taking the pressure off Okinawa and Seoul 
makes a lot of sense.
    I understand in Congress there is a lot of frustration with 
the administration's realignment plan. The budgets are 
slippery. The politics are complicated. But the bottom line is 
Prime Minister Abe in Japan has publicly committed to 
implementing the Futenma replacement plan in Okinawa. President 
Park Geun-hye and her predecessor, Lee Myung-bak, are 100 
percent behind our plans to realign forces around Camp 
Humphreys. It would be unfortunate if frustration over flaws in 
these plans--and there are flaws--caused us to do a cold stop 
in place. We would lose a lot of credibility, a lot of 
momentum.
    Finally, the security dynamic in the region is becoming 
more complicated in cyberspace, outer space, and in the nuclear 
realm. We have dialogues with our allies on these areas. We 
need to really ramp them up. We need to be making sure that we 
are credible to them in terms of our doctrine and our 
capabilities for the expanding and complicated nuclear threat 
from North Korea and with the Chinese nuclear military 
modernization. We need to be talking to them about cyberspace 
and outer space so that we have some common operating 
procedures, we understand what our roles and missions are, what 
capabilities we think we each need so that we are able to 
jointly deal with these challenges. I know the Department of 
Defense is working on these things, but we have fewer resources 
and the problems are more complex, and we are going to have to 
step our game up considerably in this region.
    Thank you.
    [The prepared statement of Dr. Green follows:]

               Prepared Statement of Dr. Michael J. Green

    Chairman Cardin, Senator Rubio, and members of the subcommittee. 
Thank you for asking me to testify before you today.
    For two centuries the United States has pursued policies that kept 
Asia and the Pacific open to our trade and our values and that 
prevented a rival hegemon from closing the region off to us. Today Asia 
is returning to the center of global affairs, and Americans knows it. 
Sixty percent of our exports go to the region now and polls show that 
for the first time Americans consider Asia to be the most important 
part of the world to our national interests.
    However, just as global power is shifting to Asia, power dynamics 
within Asia are also shifting. Some scholars argue that we are 
returning to a Sino-Centric system in Asia, pointing out that China 
trades more with America's major allies--Japan, Korea, and Australia--
than the United States does. This thesis is popular in Beijing, of 
course, where the forces of history are measured primarily through such 
material metrics. However, these trade figures miss something more 
fundamental about prevailing Asian views of their own region's future. 
That vision is one in which regional integration is guided by the kind 
of open and rules-based order we have sought throughout our history of 
engagement with Asia. Recent surveys by the Center for Strategic and 
International Studies (CSIS) and other institutes have demonstrated 
that a growing number of elites across Asia are embracing democracy and 
the rule of law as essential Asian values. Burma's transition, despite 
remaining pitfalls, stands as an example of this trend. And Burma's 
leaders tell me that their example was Indonesia; and Indonesia's 
example of democratic transition was Korea.
    China stands out in the region as a country where the elite do not 
yet embrace these norms, and polls across the region demonstrating 
wariness of China's rise reflect this to some extent. The so-called 
``Beijing consensus'' of authoritarian economic development may 
resonate in other parts of the world, but among the major states of the 
Asia-Pacific region this is not an attractive ideology. Nor, frankly, 
is there that much of a consensus in Beijing about the so-called 
``Beijing consensus.''
    In terms of U.S. interests, therefore, the key is to ensure that 
the future vision of Asian order is written by all the powers in the 
region without fear of coercion, and with confidence in American 
forward presence and engagement. China's rise may be the central issue 
in Asia, and every administration since Richard Nixon's has worked on 
improving trust and cooperation with China. That will be even more 
important and challenging in the years ahead. However, to get China 
right (as Richard Armitage, Joseph Nye, and a number of us have argued 
in a series of reports at CSIS), we have to get Asia right.
    Today, almost every country in the region wants closer ties to the 
United States because of China's growing power. We must remain mindful 
that none wants to ever be forced to choose between Washington and 
Beijing, but the appetite for increased engagement across the Pacific 
is strong.
    Last year CSIS was asked by the Congress and the Department of 
Defense to conduct an independent assessment of the administration's 
strategy for realigning our forward presence and expanding engagement 
in the Asia-Pacific. After extensive investigation, a team I led with 
my colleague, David Berteau, determined that the general thrust of the 
administration's so-called ``rebalance'' to the region was consistent 
with U.S. interests and resources. Frankly, despite the hype about a 
``pivot'' to Asia, we found that the policy largely built on existing 
plans and policies started in the Bush and even Clinton 
administrations.
    There were a number of areas, however, where we determined that the 
administration's strategy was flawed in terms of either concept or 
communication to the Congress. The Defense Department has addressed a 
number of these areas and I would single out Deputy Secretary Ash 
Carter and Assistant Secretary Mark Lippert in particular for taking 
the initiative to ensure better articulation and implementation of the 
Department's policies. Four broad areas of concern remain with respect 
to engagement of allies and partners, however.
    First, I do not believe that there is a consensus within the 
administration about why there are growing tensions along the First 
Island Chain, which extends from the Japanese archipelago through the 
Senkaku Islands, the Philippines, and the disputed islands in the South 
China Sea. Some administration officials' comments seem to suggest that 
the Philippines, Japan or Vietnam are provoking Beijing and that our 
goal should be to prevent these allies and partners from entrapping us 
in an unwanted confrontation with China. Others see the disputes as the 
result of China's effort to establish dominance over its so-called Near 
Sea and to complicate any U.S. intervention in security crises along 
the Asian littoral. The assessment of this struggle is fundamental to 
our understanding of what deterrence and reassurance strategies are 
necessary with our allies and partners. I would place more of the 
causality on the second factor--China's pursuit of a Near Sea 
strategy--but if the administration is worried about our allies 
entrapping us in a conflict, then it is important to understand that 
insecurity on their part makes accidental conflict more likely. We 
should be deepening our security cooperation and working through these 
maritime security problems with them so that we are inside their 
decisionmaking loop and able to both reassure and advise on de-
escalation strategies in the event of a crisis. The administration also 
needs to establish greater consistency of message. We cannot say enough 
that while we do not take a position on the territorial disputes 
themselves, we do have a strong national interest in ensuring that 
coercion is not used against our allies or any nation seeking peaceful 
resolution of these territorial issues. This goes to the fundamental 
question of who decides the future regional order and how it will be 
decided.
    Second, we have not established a coherent vision of what 
partnership capacity is necessary in the region. If we did, our allies 
and partners would know what it is. Instead, I have heard from senior 
Australian and Japanese defense officials who say that they cannot find 
an authoritative voice in the administration who can tell them what 
requirements we would like them to have. The Air Force tells their Air 
Force and the Navy tells their Navy, but we need a top-down integrated 
assessment of the capabilities we think our allies and partners need to 
support the larger strategic goals in the region and then we need a 
comprehensive plan to build that capacity. The decision to review the 
U.S.-Japan Defense Guidelines will provide an important opportunity to 
do just that with Japan; recognizing, of course, that the Japanese side 
will appropriately have a view on the capabilities they would like us 
to retain or strengthen. In Korea we have made progress along these 
lines with the planning for Wartime Op/Con transfer in 2015. However, 
the U.S. vision of partnership capacity across the region has to be 
integrated in PACOM and the Office of the Secretary of Defense on a 
region-wide basis. We did this in the 1980s when the Soviet buildup 
prompted the U.S. maritime strategy at PACOM and a common vision for 
the capabilities we and our allies needed to maintain deterrence and 
the common defense.
    Third, we need to sustain our support for networking of alliances, 
particularly through trilaterals such as the U.S.-Japan-Australia, 
U.S.-Japan-India, or U.S.-Japan-Korea groupings. Unfortunately, and 
through no fault of the administration's, the Korea-Japan leg is very 
weak right now. Seoul refused last year to sign a basic agreement on 
military information-sharing with Japan and contentious politics over 
history have prevented much forward movement. Yet given North Korean 
provocations, this is probably the most important of the trilaterals to 
get on track. I do not think the United States can solve the historical 
and territorial issues complicating Japan-ROK relations, but we can 
make clear to both allies that moving forward is a priority for us. I 
know that your two witnesses from the administration are working this, 
but frankly, they will need backup from the White House as well.
    Fourth, we need to keep moving forward on realignment of our 
forces. Prime Minister Shinzo Abe has committed to implementing the 
Futenma Replacement Facility (FRF) plan and we should support him. We 
concluded in our CSIS assessment that this plan was the best of a 
series of politically complicated options. With Prime Minister Abe's 
personal commitment the prospects are improving and worth pursuing. The 
same stands for our plans for consolidation of U.S. bases in Camp 
Humphreys and other facilities in Korea. I know from our CSIS 
assessment that there is frustration in Congress with the vague cost 
estimates and complicated politics of the realignment plan, and we had 
a number of adjustments we recommended in the report, including built-
in reviews of progress with the Congress. However, a stop-in-place with 
respect to realignment plans would undercut support for our presence 
and confidence in our ability to execute strategy. Ultimately, 
realignment makes sense in terms of dispersing assets in the face of 
new ballistic missile threats; improving engagement along the Asian 
littoral and the southern part of the First Island Chain; and reducing 
the burden of a concentrated military presence in places like Seoul and 
Okinawa.
    Finally, we need to recognize that the threat environment is 
constantly evolving in this region, particularly with respect to 
nuclear, cyber and outer space challenges. We need constant dialogue 
with our allies to ensure that our extended deterrent capabilities and 
doctrine with respect to nuclear threats are credible to them; that 
they have the necessary capabilities--particularly missile defense--and 
that we are developing the necessary capabilities and doctrine to 
ensure credible deterrence and defense in cyber and outer space. We 
have dialogues on all these areas with our key allies, but we have 
considerable work to do before we begin to turn those dialogues into 
joint strategies.

    Senator Cardin. Well, once again, I thank both of you for 
being here and for your testimony.
    It is very clear that this administration is committed to 
the rebalance in Asia, meaning a stronger U.S. presence in that 
region on security issues. That is clear by the steps that have 
already been taken by this administration on troop movement. It 
is also true when you take a look at the President's budget 
that he submitted to Congress where additional resources are 
made available to East Asia and the Pacific.
    For those countries that depend upon the United States for 
security, that is good news. They welcome that announcement and 
the actions that are taken. But as has already been pointed 
out, one major country in that region is not exactly thrilled 
with greater United States military and security presence, that 
being, of course, China.
    China is a very strategic player. They are very calculating 
in all decisions that they make, very much focused on the 
impact it has on their country, and they certainly want a 
stable region, but they are not exactly thrilled by having more 
United States military presence in the region. We need China's 
cooperation on North Korea to resolve that in a peaceful 
manner.
    So the question has been asked by, I believe it was, 
Senator Johnson or Senator Rubio or myself what does the United 
States do--as it rebalances with greater security presence in 
Asia--to build a more constructive relationship with China?
    Dr. Davidson. Well, thank you for the question.
    This is one of the issues that we talk about a lot. There 
is no perfect answer. We often think of the need to assure 
allies and to deter aggression from anyone in the region 
requires a robust presence. But it is a bit of a black art. 
Right? Because as you start to do that, then you get to the top 
of the curve, as you just pointed out, and maybe start to 
provoke the very behavior that you are trying to prevent. So 
the problem is you never know where you are on the curve and 
you do not know where that point on the curve is.
    And so what it requires, I think in my opinion, is robust 
engagement and dialogue all along the way, which is part of 
what I think the strategy is. And like I said in my remarks and 
in the previous panel, as they pointed out, some of these 
territorial disputes, for instance, are going to persist. 
People will have their own sovereign interests and they will 
have their own domestic politics that they have to consider. So 
this is where military-to-military engagement focused on shared 
interests like humanitarian assistance, disaster relief pays 
off in other ways. When you have shared norms for operating in 
the region, you can have military-to-military relationships 
developed over time where you can use those in times of crises 
to tamp down crises.
    I do not think it is a perfect science. I do think it is an 
art. But I do believe that you have to take a long-term 
approach to this very problem where you continue to reassure 
the Chinese especially.
    One other element. When America shows up on some of these 
exercises or in anything, they act as a really powerful 
catalyst. Other people show up and you get more robust 
multilateral cooperation. I think it is really important that 
as we continue to do that and as the actors in the region do 
that themselves, that they continue to include China in those 
activities. If they actively or accidentally do not include 
China, then it will only feed that very dynamic that you 
described.
    Senator Cardin. Dr. Green.
    Dr. Green. It is a hard question. Nobody knows exactly 
where the tipping line is between dissuasion and provoking what 
scholars call a security dilemma, that China starts reacting so 
much we create the problem we are trying to avoid. I would 
emphasize three tools that will help us.
    First, every President since Richard Nixon, no matter what 
they said on the campaign trail, when in office made it very 
clear they were going to work hard to not only maintain but 
expand the scope of United States-China relations. And every 
President in one way or another has done that. So the first 
tool is we need to, at the Presidential level and the Congress, 
make it clear to Beijing that that bipartisan consensus in 
American foreign policy continues and we want to work on more 
stuff together with China, and we are going to try to nurture 
and grow this relationship.
    The second tool, I think, is we need to recognize--and it 
is important that Beijing recognize--the rebalance came in the 
wake of a series of quite aggressive Chinese moves in 2009 and 
2010 in the East China Sea and the South China Sea. And the 
demand side was important in this equation. It was our allies 
and partners who were calling for more U.S. engagement and more 
U.S. presence in this period. So we should not be apologetic 
about that.
    I think the effect on China was important. What happened 
after the rebalance and the strategic guidance in 2012, 
including the announcement of the Marine deployments, was that 
the Chinese started coming back to their Southeast Asian 
counterparts and agreeing to a code of conduct discussion on 
how they would handle the South China Sea.
    So the region is demanding this cooperation with the United 
States--and they do not want too much of it, as I said. They do 
not want to be confronting Beijing if they do not have to--I 
think that has an actually quite important effect on China. 
Now, the Chinese side will continue to argue it is containment, 
but I think they have drawn a lesson. They imposed a self-
inflicted wound and on-side goal in 2010 by pushing their 
neighbors closer to us. And that is not something we should be 
apologetic about.
    And finally, we have to be consistent. That is why I 
mentioned consistency in our declaratory policy and our 
understanding of what is happening with these territorial 
disputes. Part of the problem with the rebalance, or the so-
called pivot, was it looked reactive and in many ways was 
reactive. And we, for a variety of reasons, got in a position 
where we had to, in effect, double down and demonstrate we were 
committed to the region. We probably should not have gotten 
there in the first place. We should not get to the point where 
we are having to adjust suddenly because the balance of power 
is out of whack.
    That is partly why forward presence is important. As Dr. 
Davidson said, if we have to surge from the homeland, that is 
provocative. If we are there and have partnerships and have 
presence, the dissuasion effect is there without the 
provocation.
    So we let ourselves in 2009 get in a place--and 2010--where 
we had to, because of demand side pull from our partners and 
allies, demonstrate our commitment, and that fueled some of 
this rhetoric in Beijing about containment. So consistency is 
also key.
    Senator Cardin. Thank you for those responses.
    Dr. Davidson, you mentioned military-to-military. Let me 
put this question to both of you in context. The White House 
issued a security sector assistance policy in April 2013 that I 
agree with. It says one of our goals is to promote universal 
values such as good governance, transparent and accountable 
oversight of security forces, rule of law, transparency, 
accountability, delivery of fair and effective justice, and 
respect for human rights. I fully agree with that. As we deal 
with security issues in countries, we should be always 
promoting good governance values.
    Well, some of the countries in Asia that we are dealing 
with where we are looking at military-to-military, their record 
in this regard is not exactly the best. So how do we balance 
our concerns for human rights with our military-to-military 
relationships? You can pick whatever country you want, but I 
will mention Vietnam because it is a country that has received 
a great deal of attention and one in which we have made 
substantial improvements in our relationship over the last 
several years, and yet, its record in regards to good 
governance is not where we need it to be and there is a great 
deal of interest in military-to-military. So how do we balance 
that?
    Dr. Davidson. Yes, sir. This is a bit of a conundrum on the 
one hand because some of the countries, just in general, who 
have the most problems are the ones who need the most 
engagement. On the other hand, there is a need to balance 
carrots and sticks. Right?
    So I am personally not of the opinion that completely 
removing engagement and isolating any country is going to help 
the problem. That said, we cannot continue to throw good 
efforts after bad over time. So I think that what we need to do 
is have engagement but then also have firm dialogue and 
conversation about whether or not that engagement will be 
enhanced or whether it will be continued over time if the 
countries in question can clean up their act.
    In general, military-to-military engagement, I think, is a 
positive force for enhancing the kinds of professionalized 
militaries that you are talking about. We have a longstanding 
history of doing that well, and we had a lot of mistakes along 
the way. I think we should be learning from those experiences 
in the cases that you cite.
    Senator Cardin. Dr. Green.
    Dr. Green. The capacity of Vietnam and Burma, or Myanmar, 
is instructive in this regard. They are both countries that 
want to engage with our military more. They are both countries 
that have in different places and different ways human rights 
or democracy or governance concerns.
    In the case of Vietnam, the military is not engaged in 
extensive repression at home, but the system denies religious 
freedom and has problems with governance, corruption, and 
obviously although there are reforms in Hanoi, obviously 
limitations on political expression. So in the case of Vietnam, 
I think we press our case in a variety of ways. There are 
legislative tools to do that. There are diplomatic tools to do 
that, in particular on religious freedom. But the military I 
think we can engage more broadly.
    Burma is different. The Burmese military is actively 
engaged in 11 different counterinsurgencies. It would be very 
hard for us to engage in IMET or E-IMET or other forms of 
military exchange, to vet the officers. It would be, frankly, 
hard to find officers who were not in some way or another 
connected with some pretty brutal--you can call them 
counterinsurgencies. You can call them repression. You can call 
it forced resettlement. So I do not think personally we can go 
to IMET or E-IMET with a country like Burma, or Myanmar, right 
now.
    But there are other things we can do. I was in Burma last 
summer and spent time with the Ministry of Defense. They are 
interested in training their troops. They hand out to every 
second lieutenant a piece of paper that says Myanmar is now a 
democracy. I said, is that all it says? And they said, yes, 
that is basically it. We can engage, I think, not through IMET 
or traditional channels but in other ways in helping them think 
through how do they train, how do they create a doctrine and a 
training program to understand what militaries do in 
democracies.
    So we are going to have to be agile and do it case by case. 
And those two countries, illustrate, I think, the kind of menu 
we need to think about.
    Senator Cardin. I think you both raised very valid points 
there.
    I would point out with a country such as Vietnam, it is 
reasonable for us to insist upon mechanisms to improve good 
governance as the price of admission for a military-to-military 
operation.
    I understand your original comments, Dr. Davidson, about 
avoiding conflict is always better than having to fight a war, 
and I agree with that completely. And having a country that has 
a sustainable economy and good governance makes it much more 
likely that we are going to have an ally and not a country that 
will present problems in the future. So, yes, we want to build 
up a sophisticated, professional military capacity within these 
countries. That is absolutely correct. We do. And military-to-
military helps. But if they do not have the good governance 
structure, it is not going to provide the security we need to 
avoid the type of conflicts in the future. So it seems to me 
that we really need to make this an understanding up front, 
particularly in a country like Vietnam.
    Now, you raise a very good point about Burma. That is a 
different situation. It is a much more complicated situation. 
And our expectations in Burma--are on a different time schedule 
than Vietnam. Both have significant problems. But we can, I 
think, manage in both countries to make progress on good 
governance.
    Let me ask one last question dealing with the forward 
deployment. You raise a good point that it is a lot easier to 
have troops in place than having to move troops in for any 
reasons. But part is also the perception of America. We want 
our engagement in Asia to bring about a positive view of 
America to the people of Asia. We want them to look at us as an 
ally and friend. We would like them to be customers of our 
products. We would like them to share our values. But if they 
look at us more as just coming over to knock someone over the 
head that they do not seem to have a concern about, that might 
well present some problems for America advancing its values.
    So as we look to this rebalancing with a greater U.S. 
presence, a greater security presence, how do we go about doing 
that in a way that maximizes the popular view of America in 
Asia that in the long term would have a very positive impact on 
America's interests? Any suggestions?
    Dr. Green. Sure, thank you. Yes, a few suggestions.
    One: the countries where we have troops or bases that have 
the largest footprint, Japan and Korea, are the countries in 
Asia where we are most popular. And so we need to sustain that 
high level of support in the countries where support for the 
alliance is highest.
    We need, I think, to remember that these are countries that 
have per capita GDP's comparable to our own that are very 
successful. A place like Futenma, the Marine Corps air station 
in Okinawa, 50 years ago was surrounded by fields and rice 
paddies. Now it looks like downtown Bethesda where I live. 
Yongsan, the major Army base in Seoul, might as well be in 
Manhattan. That is why realignment is important.
    We also need to find ways to give our allies more ownership 
of bases. OPCON transition in Korea, giving wartime command--
transitioning that to Korea is an example. In Japan, people 
like me and others in the administration have talked about 
joint use of facilities for a long time. The Japanese ground 
self-defense forces would like to collocate some of their 
infantry regiments with our Marines so they can learn how to do 
amphibious operations. And for bureaucratic reasons, we have 
been slow rolling them. We ought to be looking at ways to have 
flags that are not only Japanese and American flags on these 
bases, but actually Japanese commanders commanding the bases. 
We ought to be shifting toward that so that there is more 
ownership of our presence to make it sustainable.
    And finally, I think we have an asset in our National Guard 
and Reserves who performed amazingly well in Southwest Asia and 
Afghanistan and Iraq and who represent our whole country 
geographically and who are coming home. And I think in a 
variety of ways we can look at rotating guard and reserve units 
in small units to engage in this region. It will show the best 
examples of civil-military relations. There are specialty 
skills the guard and reserves have. And it will really 
introduce Asia to communities across this country.
    So those are a few examples where we ought to be, I think, 
more agile on the question you raise.
    Senator Cardin. Do you both agree with the assessment that 
was given by the last panel that the transfer of the wartime 
military command in the Republic of Korea to Korea from the 
United States--that there is not a risk factor looking at what 
is happening in North Korea today? Is that a realistic change 
that will take place in 2015 without affecting U.S. security 
interests?
    Dr. Davidson. Yes, I do agree with the previous panel with 
David Helvey on that. We worked closely with the Koreans for 
years. I think that it reflects a success story in partnership 
actually that the Koreans are ready, willing, and able to take 
on the operational control.
    The military that we have on the peninsula are incredibly 
professional, and they have been working for years to make sure 
that this transition goes well. And it has been pushed off once 
or twice because they did not think it was time. So I think 
that is sort of a good news and bad news story because I do 
think that they are going to make sure that they are ready by 
the time it happens. And I do think they are tracking to do 
that.
    Dr. Green. I think we should proceed with plans for wartime 
OPCON transition for the reasons that Dr. Davidson said. Korea 
is ready. It is a sovereign country. And also there is a 
military or operational problem to having this seam. In 
peacetime they command; in wartime we command. That 24- or 48-
hour transition when you are going from one commander to the 
other is a very vulnerable moment in the midst of any crisis 
with North Korea. And so a seamless sequence of knowing who is 
going to be in command at every stage of a crisis would be 
advantageous to us, especially given North Korea's more 
provocative moves. Changing hats, changing jobs, once we go to 
a full crisis, is not the kind of bureaucratic game you want to 
play. So it makes sense to move forward.
    I am a little more concerned, though, than the previous 
panel about how we are doing. There is a process for validating 
that we are ready to do this transition. And my concern--and we 
put this in our independent report on forward engagement that 
CSIS conducted for the Congress and the Pentagon. My concern 
is, first of all--and we can make that available.
    But my concern is, first, that while very capable colonels 
in U.S. Forces Korea are validating that we are ready--I think 
there also needs to be a higher level check from the Congress 
and from OSD, and also from the White House to make sure we 
have really put in the capabilities that we said Korea had to 
have before we were ready for this.
    And the second concern is not capabilities per se, but the 
signal. There is considerable opposition still within Korea to 
doing this because particularly conservatives are worried this 
sends a signal of weakness to the North. And we should not take 
that lightly.
    So I would proceed, but I would not go through the kind of 
automatic validation and testing we are doing now. I would 
elevate it, and I think the Congress and the President need to 
think this through and make it clear that it has been thought 
through so that we can have confidence in the capabilities and 
that we are not sending the wrong signal as we move to this 
next stage in the alliance.
    Senator Cardin. Well, I thank both of you for your 
testimony. I think it has been extremely helpful in 
understanding the challenges of our policies in this region. As 
I said at the beginning of this hearing, this our second 
hearing in a series. We will be having further hearings dealing 
with other dimensions of the rebalance policy. Your 
participation has been extremely valuable. So thank you all 
very much.
    With that, the subcommittee will stand adjourned.
    [Whereupon, at 3:41 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
